<html>
<title> - U.S. INTERNATIONAL FOOD AID PROGRAMS: STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


     U.S. INTERNATIONAL FOOD AID PROGRAMS: STAKEHOLDER PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                           Serial No. 114-28
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                               _____________
                               
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
96-948 PDF                     WASHINGTON : 2016                         
_____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  





                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                               Witnesses

Dills, Laura, Director of Program Quality, East Africa Regional 
  Office, Catholic Relief Services, Baltimore, MD................     4
    Prepared statement...........................................     5
Koach, Lucas, Director of Public Policy and Advocacy, Food for 
  the Hungry, Washington, D.C....................................    13
    Prepared statement...........................................    15
Didion, John, Chief Executive Officer, Didion Milling, Johnson 
  Creek, WI......................................................    18
    Prepared statement...........................................    20
Peanick, Jeffrey L., Chief Executive Officer, Breedlove Foods, 
  Inc., Lubbock, TX..............................................    22
    Prepared statement...........................................    23
Cowan, Wade, President, American Soybean Association, Brownfield, 
  TX.............................................................    31
    Prepared statement...........................................    32
Warshaw, James William, Chairman, Food Aid Subcommittee, USA 
  Rice; Chief Executive Officer, Farmers Rice Milling Company, 
  Lake Charles, LA...............................................    34
    Prepared statement...........................................    35

                           Submitted Material

Salem, Navyn, Founder, Edesia Inc., submitted statement..........    53

 
     U.S. INTERNATIONAL FOOD AID PROGRAMS: STAKEHOLDER PERSPECTIVES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:03 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Lucas, King, 
Austin Scott of Georgia, Crawford, Hartzler, Benishek, Denham, 
LaMalfa, Davis, Allen, Rouzer, Abraham, Moolenaar, Newhouse, 
Kelly, Peterson, Walz, Fudge, McGovern, DelBene, Vela, Lujan 
Grisham, Kuster, Nolan, Bustos, Kirkpatrick, Aguilar, Plaskett, 
Adams, and Graham.
    Staff present: Bart Fischer, Caleb Crosswhite, Callie 
McAdams, Haley Graves, Jackie Barber, Leah Christensen, Matt 
Schertz, Mollie Wilken, Scott Sitton, Stephanie Addison, John 
Konya, Andy Baker, Liz Friedlander, Nicole Scott, and Carly 
Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. This hearing of the Committee 
on Agriculture regarding U.S. international food aid: 
stakeholder perspectives, will come to order. I have asked Mr. 
Austin Scott to open us with a prayer. Austin?
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    Lord, we love You and we know You love us. You have loaned 
us this beautiful country. We just pray that You would be with 
the leadership of this country, that we would do the things 
that would be pleasing to You, and that we would trust You to 
guide us in that right direction.
    We ask You to continue to bless the men and women that are 
protecting this country and those that we seek to serve.
    I make this prayer respecting other faiths. I make this 
prayer in the name of Christ. Amen.
    The Chairman. Good morning, everyone. Thank you for being 
here. I appreciate our witnesses being here.
    The purpose of today's hearing is to obtain the perspective 
of those producing and processing food used in our food aid 
programs, as well as those tasked with distributing the aid to 
those around the world that are in need.
    Today's hearing is the third in our review. So far, the 
Committee has heard from agency officials charged with the 
administration of these important programs about their views on 
how the programs are working and how they can be improved.
    Our Subcommittee on Livestock and Foreign Agriculture has 
also heard from the GAO and Inspectors General for both USDA 
and USAID regarding their efforts to monitor program 
implementation. Based on that hearing, it is clear that reviews 
of cash-based assistance are few and far between, and that 
efforts have only just begun to evaluate the benefits of the 
flexibility provided in the 2014 Farm Bill. Those findings 
underscore my view that the continued push for added program 
flexibility is premature.
    Speaking of ongoing reform efforts, the Committee continues 
to seek all the facts surrounding rumored negotiations between 
USAID and the maritime industry regarding a potential agreement 
that would increase funding to participants in the Maritime 
Security Program in exchange for unprecedented levels of cash 
assistance within the Food for Peace Program.
    As I am sure you are aware, Subcommittee Chairman Rouzer 
and I have sent letters to USDA, USAID, and the Department of 
Transportation's U.S. Maritime Administration requesting 
documents of communications related to those negotiations. 
Unfortunately, we have yet to receive a substantive production 
of documents. It is my understanding that those negotiations, 
and until recently, discussions regarding a whole-of-government 
approach to global food security have largely ignored the views 
of the agricultural community. That is why I believe it is 
especially important that we provide a platform here today to 
assure that a variety of perspectives are heard.
    America's farmers are the most productive in the world, and 
without question, generate the safest and highest-quality food 
available. Their contribution has served as the backbone of 
these programs for the past 60 years and should not be 
overlooked.
    Furthermore, any review of food aid programs would be 
incomplete without input from those organizations carrying out 
the day-to-day implementation of feeding and development 
programs across the globe.
    Finally, given the Committee's commitment to gather input 
from all segments involved in the lasting legacy of food aid, 
we also intend to hear from the maritime industry in a separate 
hearing later this fall.
    The United States has long been the leader in the fight 
against global hunger, and today I look forward to learning 
more about the role that the private voluntary organizations, 
agricultural processors and suppliers, and the commodity groups 
play in that effort.
    Again, I thank all of you for being here.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Thank you for being here this morning as the Committee continues 
its review of U.S. international food aid programs. The purpose of 
today's hearing is to obtain the perspective of those producing and 
processing the food used in our food aid programs as well as those 
tasked with distributing that aid to those in need around the world.
    Today's hearing is the third in our review. So far, the Committee 
has heard from agency officials charged with the administration of 
these important programs about their views on how the programs are 
working, and how they can be improved.
    Our Subcommittee on Livestock and Foreign Agriculture has also 
heard from the Government Accountability Office and the Inspectors 
General from both USDA and USAID regarding their efforts to monitor 
program implementation.
    Based on that hearing, it is clear that reviews of cash-based 
assistance are few and far between, and that efforts have only just 
begun to evaluate the benefits of the flexibility provided in the 2014 
Farm Bill. Those findings underscored my view that the continued push 
for added program flexibility is premature.
    Speaking of ongoing reform efforts, the Committee continues to seek 
all the facts surrounding rumored negotiations between USAID and the 
maritime industry regarding a potential agreement that would increase 
funding to participants in the Maritime Security Program in exchange 
for unprecedented levels of cash assistance within Food for Peace. As I 
am sure you are all aware, Subcommittee Chairman Rouzer and I sent 
letters to USDA, USAID, and the Department of Transportation's U.S. 
Maritime Administration requesting documents and communications related 
to those negotiations. Unfortunately, we have yet to receive a 
substantive production of documents.
    It is my understanding that those negotiations--and until recently, 
discussions regarding a whole-of-government approach to global food 
security--have largely ignored the views of the agricultural community. 
That's why I believe it is especially important that we provide a 
platform here today to ensure that a variety of perspectives are heard.
    America's farmers are the most productive in the world and--without 
question--generate the safest and highest quality food available. Their 
contribution has served as the backbone of these programs for the past 
sixty years and should not be overlooked.
    Furthermore, any review of food aid programs would be incomplete 
without input from those organizations carrying out the day-to-day 
implementation of feeding and development programs across the globe.
    Finally, given the Committee's commitment to gathering input from 
all segments involved in the lasting legacy of food aid, we also intend 
to hear from the maritime industry in a separate hearing later this 
fall.
    The United States has long been the leader in the fight against 
global hunger, and today, I look forward to learning more about the 
role that private voluntary organizations, agricultural processors and 
suppliers, and the commodity groups play in that effort.
    Again, thank you all for being here. I now yield to the Ranking 
Member for any remarks he would like to make.

    The Chairman. I yield now to the Ranking Member for any 
remarks that he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I welcome the 
witnesses to the Committee.
    As the Chairman has said, today's hearing continues the 
Committee's review into international food aid programs in 
advance of the next farm bill. We made several improvements to 
U.S. food aid programs in the 2014 Farm Bill, and I look 
forward to hearing from our witnesses on how they have been 
impacted by these changes.
    We are focusing on stakeholder perspectives today, and the 
groups before us should all be commended for the work that they 
do around the globe. The partnerships of the private 
organizations, millers and shippers have allowed the United 
States to deliver more than $80 billion in international food 
aid since World War II.
    Again, I thank our witnesses for their work, and I look 
forward to hearing their testimony, and I yield back.
    The Chairman. I thank the gentleman.
    I would now like to introduce our panel today, 
distinguished folks all. Ms. Laura Dills, the Deputy Regional 
Director for Program Quality, East Africa Regional Office, 
Catholic Relief Services, Nairobi, Kenya; Mr. Lucas Koach, the 
Director of Public Policy and Advocacy, the Food for the Hungry 
program, here in Washington, D.C.; Mr. John Didion, CEO of 
Didion Milling, Johnson Creek, Wisconsin; Mr. Jeff Peanick, CEO 
of Breedlove Foods of Lubbock, Texas; Mr. Wade Cowan, President 
of the American Soybean Association from Brownfield, Texas; Mr. 
Jamie Warshaw, Chairman of the Food Aid Subcommittee, USA Rice, 
Lake Charles, Louisiana.
    Lady and gentlemen, thank you for being here. Ms. Dill, you 
are recognized for 5 minutes.

         STATEMENT OF LAURA DILLS, DIRECTOR OF PROGRAM
         QUALITY, EAST AFRICA REGIONAL OFFICE, CATHOLIC
                 RELIEF SERVICES, BALTIMORE, MD

    Ms. Dills. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the House Agriculture Committee. On 
behalf of Catholic Relief Services, we appreciate this 
opportunity to discuss our perspectives on international food 
aid programs.
    I am honored to be a part of this panel, which is 
representing key elements of the international food aid system.
    Catholic Relief Services is the international humanitarian 
and development agency of the U.S. Conference of Catholic 
Bishops. We operate in over 90 countries and often implement 
programming through existing Catholic Church networks. This 
gives us a unique opportunity to reach people in need that many 
others can't match. We view international food programs--Food 
for Peace, Food for Education, Food for Progress--as critical 
components to U.S. efforts to improve food security around the 
world.
    Catholic Relief Services' food security approach is rooted 
in the Pathway to Prosperity model described in detail in my 
written testimony. We take a holistic view to supporting small 
holder family farms, integrating assistance across sectors and 
entire communities. Ultimately, this encourages market 
engagement as the long-term sustainable path out of poverty.
    Food aid programs are well positioned to support this 
approach, especially Food for Peace. Our work with Food for 
Peace in Madagascar focuses on nutrition, livelihoods, and 
community resilience. The program has seen farmers' yields in 
the main staple crops of rice and casaba increase by 80 and 38 
percent, respectively. The program reforested 10,000 acres and 
irrigated 24,000 acres of land. We saw a 12 percent decline in 
stunting and a 31 percent decrease in underweight children. 
Overall, this program improved the lives of over 600,000 
people.
    While these seem like just statistics, behind them are real 
people whose lives are better as a result of the program.
    I would like to tell you about a little boy that I met when 
I lived in Madagascar for 3\1/2\ years named John Clement. When 
he came into our program he was skin and bones. At 14 months, 
he weighed a mere 14 pounds. He was so severely undernourished 
that he didn't even have the strength to lift his head. Our 
program taught his mother better hygiene and nutritional 
practices, showing her how to prepare more nutritious foods 
using local resources available in the market. This miracle in 
this program was evident after 12 days. He gained 2 pounds and 
was able to walk.
    This is a clear example of how critical it is to have 
dedicated funding for Food for Peace development programs and 
why we are very pleased with the results of the 2014 Farm Bill. 
That bill provides no less than $350 million a year to these 
programs. It has also eliminated a waiver system that could 
have siphoned funding from programs that rehabilitate children 
like John Clement.
    To be clear, we view both the emergency and development 
sides of Food for Peace as critical. Funding for these two 
purposes should not be pitted against one another. We believe 
the Committee struck the right balance on this issue and hope 
others in Congress also see the wisdom of your actions.
    While Food for Peace and all the food aid programs you 
oversee are doing incredible work, we respectfully offer 
specific recommendations that would further improve the 
programs.
    These include further reducing monetization in Food for 
Peace and addressing it in the Food for Progress, giving 
implementers more discretion to use vouchers or the local 
purchase of food and programming and reducing the minimum 
tonnage and repealing outdated rules governing cargo 
preference. Action in this last area would be very timely given 
the GAO's report released last week that shows cargo preference 
led to $107 million more in food and shipping costs. We stand 
ready to work with you in pursuing any of these paths to more 
efficient food aid programs.
    Last, while it isn't the topic of this hearing, I 
understand the Agriculture Committee is presently reviewing the 
Global Food Security Act. As such, I wanted to highlight 
Catholic Relief Services' support of this bill. We believe the 
bill provides important Congressional direction to the existing 
Feed the Future program. We are especially supportive of the 
great emphasis it places on highly vulnerable people and 
greater reporting requirements that will give a clearer picture 
on how funding is used.
    Thank you again for this opportunity. I look forward to 
answering any questions that you may have.
    [The prepared statement of Ms. Dills follows:]

 Prepared Statement of Laura Dills, Director of Program Quality, East 
    Africa Regional Office, Catholic Relief Services, Baltimore, MD
    Thank you Chairman Conaway and Ranking Member Peterson for this 
opportunity to provide testimony to the House Committee on Agriculture. 
I am Laura Dills, Deputy Regional Director of Program Quality for the 
East Africa Regional Office of Catholic Relief Services. I have been 
with Catholic Relief Services for 12 years and have been involved in 
Food for Peace projects in Burkina, Rwanda, India, Haiti, Madagascar, 
and now East Africa. I am honored to represent Catholic Relief Services 
in this hearing.
    In my statement, I will review Catholic Relief Services' food 
security strategy, discuss how U.S. food aid programs help us to 
implement that strategy to help millions of people, and then make 
several recommendations from our experience that the Committee should 
consider as it seeks to improve the impact and efficiency of U.S. 
international food assistance.
Catholic Relief Services and the U.S. Catholic Church
    Catholic Relief Services is the international relief and 
development agency of the U.S. Catholic Church. We are one of the 
largest implementers of U.S.-funded foreign assistance overall, and of 
international food aid programs under the jurisdiction of the 
Agriculture Committees. Our work reaches over 100 million poor and 
vulnerable people in nearly 90 countries. Catholic Relief Services 
works with people and communities based on need, without regard to 
race, creed, or nationality. We often partner with institutions of the 
Catholic Church and other local civil society groups in the 
implementation of programs, which from our experience is essential to 
understanding the needs of the communities we work with, and ultimately 
the long-term success of our work.
Catholic Relief Services Concept of Food Security
    A core focus of our work is on improving the livelihoods of small 
holder farm families as a means to achieve food security. These 
families can be categorized according to their levels of assets, 
vulnerability, commercial prospects, education, and ability to take on 
new technologies or risk. Accounting for these differences, our 
objective is to move small holder farm families along a Pathway to 
Prosperity (see Graph), and ultimately out of any need of assistance.
Graph 1
Pathway to Prosperity Model
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Moving people along the Pathway to Prosperity requires 
transitioning families from subsistence farming into greater engagement 
with markets. Ultimately, small holder farming is a small business and 
even very vulnerable farmers--with the right skills and opportunities--
can increase their income through increased connections to markets.
    Catholic Relief Services provides customized support to farm 
families at all levels of the Pathway in areas of building and 
protecting assets, acquiring new business skills, adopting better 
farming practices, and revitalizing the natural resource base. The vast 
majority of the people we work with are subsistence farmers who would 
be classified in recover or maybe the build segments of our Pathway to 
Prosperity model. That said, changes in production and commercial 
behavior by one group in a community will affect others, so our 
programming looks at a community-wide strategy that works with small 
holder farmers in each group and across a number of sectors. These 
sectors tend to include agricultural production, nutritional status, 
and market engagement. We believe that this holistic, community-wide 
approach is the most effective way to achieve long-term food security.
Food for Peace Program
    For over 60 years the Food for Peace program has provided food 
assistance to people in need around the world. Current operations of 
the Food for Peace program are split between emergency and development 
programming. Emergency food aid supplied by Food for Peace provides 
U.S. commodities to people who are impacted by natural disasters or 
civil conflict. Emergency programs have traditionally lasted 6-12 
months, however, in many cases they are continued for much longer 
periods of time because the underlying emergency conditions are not 
resolved. This is particularly true for many refugees and internally 
displaced people who have fled violence at home. Catholic Relief 
Services currently is the prime implementer of an emergency Food for 
Peace program in Ethiopia, and is a sub-awardee to several emergency 
food aid programs.
    Food for Peace development programs primarily serve extremely farm 
families in the recover and build levels denoted on our Pathway model. 
In line with our approach to food security, Food for Peace development 
projects are designed to address a number of sectors simultaneously--
agriculture, nutrition, land regeneration, water management, 
infrastructure improvements, and market engagement--in order to address 
whole community needs. Food for Peace development programs are 
implemented over a period of at least 5 years, which gives implementers 
like us enough time to make a lasting impact on the people we serve, 
whether by revitalizing local ground water sources, teaching farmers' 
skill sets and new practices, or constructing community assets like 
dikes and irrigation systems. Development programs are awarded on a 
competitive basis, allowing the best ideas and most successful 
implementers to carry out the work. And, these programs are designed to 
address chronic stress before negative trends devolve into outright 
crisis, thus helping people avoid the need for emergency food 
assistance. Catholic Relief Services is the lead implementer of eight 
Food for Peace development projects; these projects are in Burkina 
Faso, Burundi, Ethiopia, Guatemala, Malawi, Madagascar, Niger, and 
South Sudan.
    The 2014 Farm Bill set funding for development projects at a 
minimum of $350 million per year, and also permitted this funding to 
rise up to 30% of overall Food for Peace appropriations. The remaining 
Food for Peace appropriations are available for emergency food 
assistance programs. In practice, this has provided over $1 billion for 
emergency food aid over the last several years. The 2014 Farm Bill also 
eliminated a waiver system that would allow development funding to be 
used for emergencies if certain conditions were met.
    Catholic Relief Services believes funding for both emergency and 
development food aid programs is critical, and that funding for one 
should not come at the expense of the other. As such, we are grateful 
that the 2014 Farm Bill eliminated the then existing waiver, and 
established a reliable level of funding for development projects. 
Consistent funding for long-term development programs is paramount to 
ensuring such projects are able to achieve their goals. That said, we 
are troubled that funding for Food for Peace has remained flat over the 
last few years, particularly in light of higher commodity and 
transportation costs. We encourage Congress to prioritize higher levels 
of funding for the Food for Peace program so that more resources are 
available for both emergency and development food aid programs.
Food for Peace in Practice--Madagascar
    Madagascar is an island off the Southeast coast of Africa, with a 
population of about 22 million people. About 80% of the population 
lives on less than $2 a day, and greater than 50% are considered food 
insecure. In 2014 a Catholic Relief Services-led consortium completed 
the Food for Peace project Strengthening and Accessing Livelihood 
Opportunities for Household Impact (SALOHI) project which served 
630,000 people in the Central and Southern portions of Madagascar. The 
project focused on helping vulnerable groups within the target areas, 
including rural farmers in Eastern coastal areas who are often impacted 
by cyclones and floods, farmers living in largely inaccessible regions, 
pastoralists and farmers who often face drought in the South, and 
especially female-headed households in all project regions. The SALOHI 
project had three main objectives; (1) improve child nutrition, 
especially for children less than 5 years old, (2) improve the 
livelihoods of food-insecure households, and (3) increase community 
resilience to the shocks that often befall Madagascar.
    Addressing child nutritional needs was a major component of this 
Food for Peace project, particularly given that over 17% of the people 
in target areas were children under 5. Project activities directly 
impacting child nutrition included the promotion of exclusive 
breastfeeding through 5 months, complementary feeding (supported in 
part with Food for Peace commodities) for children 6-23 months with 
continued breastfeeding, and prevention of micronutrient deficiencies 
and anemia. To help prevent childhood diseases, particularly diarrheal 
diseases common among beneficiary communities, SALOHI focused on 
improving personal hygiene of beneficiaries, especially hand washing 
and food hygiene. The project also trained existing and new community 
health workers and volunteers in the area of children's health, 
encouraged mothers to bring their children for regular checkups to 
monitor their nutritional status and potential need for intervention, 
and addressed the needs of malnourished children.
    Since the vast majority of beneficiaries in SALOHI were 
smallholder, subsistence farmers, efforts to improve livelihoods 
focused on increasing agricultural production through Farm Field 
Schools (FFS) that brought small groups of farmers together to learn 
new farming techniques like planting in rows, use of better seed, 
basket composting, and use of organic fertilizer. SALOHI also helped 
farmers organize themselves into village-level microfinance 
cooperatives that pooled and lent small amounts of capital to their own 
members. Working with these same farmer groups, SALOHI also introduced 
agribusiness skill-sets. Women made up \1/2\ the participants in FFS 
groups and over \1/2\ in microfinance cooperatives. The new techniques 
and skills from these interventions often spilled over to community 
members who did not participate in the Food for Peace project, as they 
saw and learned from direct project participants.
    To improve community resilience and to compliment other aspects of 
the project, Food for Peace commodities were used in food for asset 
activities, where community members would build and rehabilitate 
community infrastructure like roads, dams, canals, and irrigation 
channels in exchange for food rations. To ensure sustainability, 
several types of management associations were created to build and 
maintain these assets, some of which collect fees to raise money for 
upkeep expenses. SALOHI employed a ``Go Green Strategy'' in both its 
livelihood and resilience activities, which promoted natural resource 
management and sustainability. For instance, to protect farm land from 
soil erosion, the program promoted reforestation and agroforestry in 
and around agricultural areas. Such an approach shields farm land from 
strong winds, reduces soil erosion from flooding, and improves water 
quality and availability.
    The final evaluation found that SALOHI met or exceeded most of its 
major targets. For children under 5, stunting rates declined from 47% 
to 41% and underweight children decreased from 29% to 20%. Average food 
availability in households increased from 7.7 months to 9.1 months. 
Adoption of new agricultural practices increased yields in staple crops 
like rice (80%) and cassava (38%), and led to more vegetable production 
and the adoption of new crops like sweet potatoes. Almost 4,300 
hectares of land were reforested or protected, almost 900 kilometers of 
roads were built or rehabilitated, and over 9,800 hectares of land are 
now being irrigated thanks to SALOHI. What these numbers mean is that 
farmers are able to grow more food, on less land; farmers are not 
losing as much of their crops to storms, floods and pests; farmers are 
able to get their crops to market, sell more of their crops, and 
receive better prices; preventable childhood diseases are in fact being 
prevented; children who need special care are being helped; families 
have learned how to better care for their children; and overall, 
children are healthier and people are more productive. These are the 
kinds of achievements characteristic of Food for Peace development 
projects.
    We plan to continue and build on the successes in SALOHI, as 
Catholic Relief Services was recently awarded a second Food for Peace 5 
year development project in Madagascar. In addition to bringing our 
interventions to new regions in Madagascar, we are especially excited 
about new ways we are integrating market engagement into project 
activities. For instance, we are working with a local business in 
Madagascar to certify participating farmers in the production of 
organic vanilla. While Madagascar already produces the majority of the 
world's vanilla, there is a growing world demand for certified organic 
vanilla, which most of Madagascar's producers can't meet. We hope to 
help project farmers to meet this demand, first by earning organic 
certification and second by connecting them with international buyers 
like McCormick's and Ben and Jerry's, and in the process help them earn 
a premium for their product.
McGovern-Dole Food for Education Program
    The McGovern-Dole International Food for Education and Child 
Nutrition Program provides U.S. commodities for overseas school lunch 
programs. These programs target some of the most food insecure 
communities, so providing school lunches serves as a major incentive 
for parents in these areas to send their children to school. Indeed, 
for many of the children served by McGovern-Dole programs, their school 
lunch is the only full meal they receive all day. This program has led 
to significant increases in school attendance, particularly of girls 
who in many communities are most likely to be kept home by their 
families. In addition to providing school lunches, Catholic Relief 
Services also implements complimentary activities that focus on 
literacy and strengthen educational quality, such as curriculum 
development, teacher training, and mentoring. Catholic Relief Services 
is currently implementing Food for Education projects in Benin, Burkina 
Faso, Guatemala, Honduras, Laos, Mali, and Sierra Leone.
Food for Education in Practice--Honduras
    Catholic Relief Services is implementing a Food for Education 
program in Intibuca, a department (state) in Honduras which has the 4th 
highest adult illiteracy rate in the country and which is situated in 
highlands which geographically is difficult to reach. The program is 
serving more than 53,000 children, in over 1,000 schools, and includes 
a daily breakfast for all participating children, as well as take home 
rations for certain students. Food used in these programs is largely 
U.S. commodities donated by the American people.
    Beyond providing meals, this Food for Education project funds 
implementation of a multi-prong approach to improving student 
attendance and achievement, and students' overall learning environment. 
This includes organizing school vegetable gardens which help supplement 
the U.S. commodities used in the program; peer-to-peer tutoring 
programs that target under achieving youth with special help from 
fellow classmates and teachers; drop-out intervention committees that 
help identify and address the root causes of why children are absent 
from school; support to especially poor families who cannot afford 
school supplies like books, backpacks, and uniforms; the creation of a 
substitute teacher program made up of community volunteers, so the that 
the overtaxed regular faculty can attend trainings and professional 
development workshops; and physical improvements to schools, like 
building and improving latrines, classrooms, and kitchen areas.
    One of the more exciting recent developments in the program is that 
the Government of Honduras has decided to invest $625,000 into the 
program for the purchase of local foodstuffs to support the feeding and 
take home rations component. While this is only a 1 year pilot that 
will end in December 2015, we are hopeful that the government will be 
willing to renew this investment in subsequent years.
Food for Progress Program
    The Food for Progress program improves commodity value chain 
development and market engagement for vulnerable farmers, helping them 
earn more and better support their families. Projects are funded 
through monetization of U.S. agricultural products in host country 
markets. Catholic Relief Services is presently implementing Food for 
Progress projects in Burkina Faso, the Philippines, Tanzania, and in 
Nicaragua. Like with the other food aid programs we implement, Catholic 
Relief Services has seen great success with Food for Progress. For 
instance, in the Philippines we worked with 33,000 farm families 
involved in rice and coffee production who had limited market 
experience, no access to end buyers, and limited farmland. We helped 
these farmers improve yields and product quality, learn essential 
business skills, and organize in cooperatives so they could 
collectively ask for higher prices. As a result, rice production rose 
57% and coffee production rose 27%. Farmers also saw better prices for 
their crops, with an average increase of 17% for rice and 31% for 
coffee.
Farmer-to-Farmer Program
    The Farmer-to-Farmer program has been matching U.S. farmers and 
other agricultural professionals with projects and communities in need 
of expert help around the world for 30 years. Beginning last year, 
Catholic Relief Services has matched over 100 U.S. citizens with 
projects in Kenya, Tanzania, Uganda and Ethiopia. The skill sets of 
these volunteers include basic farming skills, to soil quality and 
management, marketing, and a host of other areas. Volunteers have 
offered their expertise in stand-alone projects, and in support of 
other existing and ongoing projects funded by Food for Peace, Food for 
Progress, Feed the Future, and other U.S. funded programs.
Improving Food Aid Programs
    As outlined above, Catholic Relief Services is a major implementer 
of food aid programs and as such we have a clear and deep perspective 
of how these programs operate. This affords us a unique perspective in 
how food aid programs can be improved. Below we provide three broad 
categories for our many recommendations for improvement; Shipping and 
Cargo Preference, Monetization, and Flexibility.
Shipping and Cargo Preference
    Catholic Relief Services recommends that Congress explore changes 
to existing cargo preference laws and practices that have had a 
negative impact on food aid programs. Cargo preference is the policy 
that requires the shipping of U.S. funded cargo, in this case food aid, 
on U.S.-flagged vessels. The basis for this requirement is to help 
maintain private, sealift capacity--in terms of both cargo vessels and 
U.S. crews--in order to transport military supplies should it be 
required. While there is debate over whether cargo preference is an 
effective way of achieving this objective, it is clear that using U.S.-
flagged vessels to ship food aid is more expensive than using foreign 
flagged vessels. According to a study commissioned by the Department of 
Transportation's Maritime Administration (MARAD), U.S.-flagged vessels 
cost 2.7 times more to operate than vessels flagged in other 
countries.\1\ Our own experience in the price differential between U.S. 
and other vessels closely resembles this assessment.
---------------------------------------------------------------------------
    \1\ Maritime Administration, U.S. Dept. of Trans., Comparison of 
U.S. and Foreign-Flag Operating Costs, Sept. 2011,available at http://
www.marad.dot.gov/documents/
Comparison_of_US_and_Foreign_Flag_Operating_Costs.pdf.
---------------------------------------------------------------------------
    The cargo preference law applicable to food aid programs is found 
in 46 U.S.C. 55305(b), and states that:

          ``at least 50 percent of the gross tonnage of the . . . 
        commodities (computed separately for dry bulk carriers, dry 
        cargo liners, and tankers) which may be transported on ocean 
        vessels is transported on privately-owned commercial vessels of 
        the United States, to the extent those vessels are available at 
        fair and reasonable rates for commercial vessels of the United 
        States, in a manner that will ensure a fair and reasonable 
        participation of commercial vessels of the United States in 
        those cargoes by geographic areas.''

    There are several things Congress can do to reduce the impact cargo 
preference has on food aid programs. First, we encourage Congress to 
consider eliminating or reducing the minimum tonnage required to be 
shipped on U.S.-flagged vessels. Depending on the reduction, this 
change could have significant and direct savings for food aid programs, 
leading to the purchase of more U.S. food and helping more hungry 
people. Alternatively, we ask Congress to consider making changes 
beyond the minimum tonnage requirement to current cargo preference law 
that would also result in significant savings for food aid programs.
    One change going beyond reducing the minimum tonnage that we 
recommend is eliminating the distinction between classes of vessels. 
The Maritime Administration, supported by the Department of Justice, 
has determined ``that at least [50] percent of agricultural commodities 
be shipped by U.S.-flag vessels `computed separately for dry bulk 
carriers, dry cargo liners and tankers' requires that the U.S. vessels 
be divided into those three categories and further, that the [50] 
percent minimum be computed separately for each category of vessel.'' 
\2\ In today's ships is very little functional difference between these 
vessel types, yet we have seen U.S. carriers use this provision to 
force the rebidding of awards that were initially to less expensive 
carriers (both U.S. and foreign) because the quota for the vessel type 
they were offering had not been met.
---------------------------------------------------------------------------
    \2\ Maritime Administration, U.S. Dept. of Trans. Notice: 
Procedures for Determining Vessel Service Categories for Purposes of 
the Cargo Preference Act, Fed. Reg. Vol. 74, No. 177, Sept. 15, 2009, 
p. 47309, available at http://www.marad.dot.gov/documents/MAR730.AG-
2009-03.pdf.
---------------------------------------------------------------------------
    Also, the reference to ``geographic areas'' in the cargo preference 
law has led to the requirement that USDA food aid programs must meet 
the 50% requirement by country, per year.\3\ Under this constraint, 
small country programs with only one or two shipments in a year usually 
have to use the more expensive U.S. carriers for all their commodity 
shipments in order to ensure they meet the 50% minimum. We recommend 
doing away with the requirement that minimum tonnage be calculated 
based on country, or any other geographic region.
---------------------------------------------------------------------------
    \3\ Government Accountability Office, Cargo Preference 
Requirements: Objectives Not Significantly Advanced When Used in U.S. 
Food Aid Programs, Sept. 1994, available at http://www.gao.gov/assets/
160/154635.pdf.
---------------------------------------------------------------------------
    Problems with the shipment of food aid go beyond the cargo 
preference law. Recently in Madagascar, we saw a foreign flag carrier 
split what should have been eight shipments of food into 23 different 
shipments, spread out over several months. This led to delays in 
program implementation, and higher than expected costs associated with 
receiving, handling and storage of the food. In another recent 
instance, a shipment of food on a U.S. carrier destined for Ethiopia 
was challenged by another U.S. carrier who felt the winning transport 
company did not meet all relevant statutory requirements. We ultimately 
decided to go ahead with the original carrier as planned because any 
delays could have put lives in jeopardy, but in so doing we had to 
assume the risk of potential legal action for this decision. We believe 
there is also a role for Congress to help address food aid shipping 
problems that are outside of the cargo preference law through greater 
oversight, and if need be through legislative changes that prioritize 
timely shipment of food aid.
    Last, Food for Progress has been particularly hard hit by cargo 
preference requirements in recent years. The authorization for Food for 
Progress allows the program to spend up to $40 million a year on 
transportation costs. Prior to 2012, food aid programs were being 
reimbursed for using higher costs associated with shipping food on 
U.S.-flagged vessels. It was Food for Progress' practice to reinvest 
these reimbursed funds into additional transportation for its projects. 
We estimate this effectively gave Food for Progress $5-$10 million more 
each year to spend on overseas shipping of U.S. commodities. Now that 
reimbursements have been eliminated, Food for Progress has had to cut 
back on the number of programs it funds, reducing the number of people 
the program once reached. We ask Congress to consider ways to address 
this reduction in programming--in the short-term by considering 
additional appropriations to supplement the program's cap on shipping, 
and in the long-term, providing a higher authorized level of funding 
for transportation costs.
    Catholic Relief Services also wants to make clear that we admire 
and respect the contributions made by U.S. merchant mariners, who for 
over 60 years have delivered U.S. food to millions of hungry people 
around the world. We recognize their efforts and sacrifices in food aid 
programs, and consider them valuable partners in the fight against 
hunger. We, however, believe that the cost of achieving the objective 
of maintaining a U.S.-flagged merchant fleet, and U.S. mariners to crew 
those vessels, should not at the expense of programs intended to help 
the hungry overseas. We encourage Congress to consider measures to 
support merchant marines in ways that do not place an undue burden on 
food aid funding.
Monetization
    Monetization is the practice of shipping U.S. commodities overseas, 
to be sold abroad, in order to raise funds to cover non-food program 
costs. Usually the markets in which these goods must be sold cannot 
bear the full cost of purchasing U.S. commodities and shipping them 
overseas--especially when U.S. carriers are used. In almost every 
single case, sales are at a loss. The Government Accountability Office 
has looked at this and has concluded that monetization is an 
inefficient means of raising funds to cover non-food program costs, 
noting that Food for Peace monetization on average achieved a 76% cost 
recovery--that is, the sale of commodities netted only 76% of the cost 
to buy and transport the food in the first place.\4\ Our own experience 
closely resembles these results.
---------------------------------------------------------------------------
    \4\ Government Accountability Office, Funding Development Projects 
through the Purchase, Shipment, and Sale of U.S. Commodities Is 
Inefficient and Can Cause Adverse Market Impacts, June 2012, available 
at http://www.gao.gov/assets/330/320013.pdf.
---------------------------------------------------------------------------
    The Agriculture Committees recognized that monetization was an 
inefficient practice and in the 2014 Farm Bill increased the amount of 
Food for Peace funding available to 202(e), a provision in the Food for 
Peace Act that provides cash funding for administrative purposes. 
Additionally, the scope of activities that 202(e) could fund was 
broadened to include development activities and the enhancement of 
existing programs. These changes, along with additional cash funding 
provided to Food for Peace from USAID's Community Development Fund, has 
allowed most Food for Peace programs to avoid the use of monetization, 
including all Food for Peace development programs Catholic Relief 
Services is currently implementing. For this we are incredibly 
grateful.
    While we consider this substantial progress, we also note that the 
2014 Farm Bill still requires that at least 15% of Food for Peace 
development program resources be used towards monetization. We are 
concerned that this enduring 15% requirement could force our programs 
in the future to monetize again. We ask that you consider measures that 
would eliminate the requirement to monetize in Food for Peace programs 
altogether. Additionally, we note that Food for Progress programs 
remain entirely funded though monetization. We request the Agriculture 
Committee consider ways to make cash funding available in the Food for 
Progress program as well.
    Another way the 2014 Farm Bill sought to address monetization was 
to institute a special reporting requirement when a monetization 
project failed to achieve at least a 70% cost recovery. It is our 
understanding that the intention behind this provision was to document 
the reasons why there was such a low cost recovery. In practice, this 
provision was seen as a signal from Congress that no project should 
ever have a cost recovery lower than 70%. This has led to substantial 
reluctance by Food for Progress to engage in any projects that do not 
guarantee at least 70% cost recovery. In the long term, this could mean 
Food for Progress may scale back operations to only those few countries 
where higher than 70% cost recovery can reliably be achieved--most 
likely only countries that are a short distance from the U.S. To be 
clear, our goal is to achieve as high a cost recovery as possible in 
each monetization. However, we have no control over the prices of the 
commodities that are bought for the project; we have no control over 
how much we will be charged to transport the commodities overseas; and 
we have no control over the market conditions in the countries in which 
we are required to monetize. In short, our ability to achieve cost 
recovery is limited, and we are concerned otherwise worthy projects 
will not commence because they could not guarantee a 70% cost recovery. 
As such, we ask that the Agriculture Committee provide clear guidance 
to USDA that it will not be penalized in any way if Food for Progress 
monetization does not meet the 70% cost recovery target.
Flexibility
    The 2014 Farm Bill also provided additional flexibility in how food 
aid funding could be used. Most notably, it made permanent a pilot 
Local and Regional Procurement (LRP) program, and authorized $80 
million in funding for this program. The farm bill also established a 
preference that this funding be used in conjunction with McGovern-Dole 
projects. We were very pleased with this outcome in the farm bill and 
believe that this funding could help encourage local governments to 
ultimately assume responsibility for school lunch programs. 
Specifically, we hope to implement programming that will build the 
capacity of local farmers to supply the food need to carry out school 
lunch programs, and the capacity of school officials and parent 
associations to manage the purchase, storage and preparation of school 
lunches. In this way, we will be able to create local systems to supply 
and carry out school feeding that can ultimately be turned over to 
local and national governments to fund. Since these systems will have 
already been adopted by the local community, and the benefits of the 
system all feedback to the local community, governments will have 
strong incentives to take over program funding when the McGovern-Dole 
funding runs out. We strongly encourage Congress to provide funding for 
the USDA LRP program in the final FY 2016 appropriations bill.
    Another area of flexibility that we appreciate is the ability to 
temporarily transition existing Food for Peace development programs 
into emergency programs when on-the-ground circumstances make it 
impossible to continue development programs as planned. This 
flexibility has been provided by the Office of Food for Peace in two 
recent cases--Mali and South Sudan. In both cases we had begun 
implementation of Food for Peace development projects when internal 
civil conflict flared. In both cases we were able to use program 
commodities to provide emergency food relief to affected civilian 
populations, and in both cases we were able to transition back to 
development programming to populations outside combat areas. What is 
most critical about this kind of flexibility is that these projects 
have been very responsive to immediate and changing needs, and we 
believe they can provide a level of stability that will support the 
ultimate resolution of these conflicts.
    Catholic Relief Services also urges Congress to provide food aid 
implementers as much discretion as possible in how food aid funds are 
used, including whether they can be used for the purchase of U.S. 
commodities, locally produced/purchased commodities, vouchers, or cash 
transfers in their projects. We have used each of these modalities of 
assistance and we know they all can be valuable in the fight against 
hunger and it is the specific circumstances of the project that will 
determine which is the right tool to use. In some cases using U.S. 
commodities will be the best choice--because it's less expensive, it 
can be provided in the necessary quality or quantities, or buying 
locally in the needed volumes will negatively impact local markets. 
Alternatively, in some cases using an LRP modality will be the best 
choice--because it's less expensive, can get to the target population 
faster, is more amenable to local diets, or because bringing in U.S. 
commodities would be disruptive to the local market. Given the dynamic 
circumstances in which food aid operates, food aid programs should be 
responsive, nimble, and adaptable to current conditions. Ideally, 
implementers would have complete discretion in how food aid funding is 
used through the life of a program.
Conclusion
    U.S. food aid programs--Food for Peace, Food for Education, Food 
for Progress and Farmer-to-Farmer--have been incredibly successful at 
feeding the hungry and helping the poor become more self-sufficient. It 
is through these programs that the U.S. is making a significant 
contribution to lifting people out of poverty, and their success gives 
us great hope that our collective goal of ending extreme poverty is 
attainable. At the same time, we know these programs can be improved, 
and we ask the Agriculture Committee and all of Congress to consider 
adopting the recommendations we provide in this testimony.
    Thank you for this opportunity to share with the Committee our 
perspectives on food aid and we stand ready to work with you on making 
the programs even better in the future.

    The Chairman. Thank you, Ms. Dills.
    Mr. Koach.

    STATEMENT OF LUCAS KOACH, DIRECTOR OF PUBLIC POLICY AND 
        ADVOCACY, FOOD FOR THE HUNGRY, WASHINGTON, D.C.

    Mr. Koach. Mr. Chairman, Food for the Hungry appreciates 
this opportunity to present testimony on the value and 
importance of U.S. food aid programs that address emergency 
needs and promote food security in developing countries. I ask 
to submit my full testimony for the record, and will summarize 
the key points in my opening statement.
    The Chairman. Without objection.
    Mr. Koach. Food for the Hungry is a private volunteer 
organization, commonly referred to as a PVO, and a faith-based 
organization that works with communities in need around the 
world. Our approach is partnering, helping people identify and 
address the impediments to development and then to build their 
capacity through skills development, increased economic 
opportunity, greater ability to engage their government 
officials, and improve access to water, food, education, 
healthcare and other vital services. We are grateful for the 
generosity of the American people who contribute funds to our 
organization, and we are grateful to the Congress, which has 
consistently supported food aid and other programs that uplift 
the needy.
    All the food aid programs under the jurisdiction of this 
Agriculture Committee are vital for meeting the range of needs, 
and while many know of the use of food aid to meet urgent 
needs, the overall goal of food aid is to indeed provide food 
where it is needed and to also build self-reliance in order to 
reduce the future need for emergency food aid. Thus, Food for 
Peace, Food for Progress, McGovern-Dole International Food for 
Education and Child Nutrition include technical assistance in 
capacity-building to allow food-insecure countries and crisis-
prone poor communities move from subsistence to self-reliance 
so their populations may lead healthier and more productive 
lives.
    The farm bill's USDA Local Procurement Program also offers 
a new opportunity to integrate local ingredients into food aid, 
and if well planned, to stimulate local production and 
processing of nutritious foods.
    Mr. Chairman, six of the seven statutory purposes of Food 
for Peace Title II focus on using food aid in programs that 
address the underlying causes of chronic hunger and help people 
lead more productive lives. The premise is straightforward: 
regions where there is extensive poverty, poor infrastructure, 
and chronic hunger are prone to crisis. When food aid is 
integrated into programs that help vulnerable households and 
communities become more food-secure and self-reliant, they are 
less likely to need repeated humanitarian interventions over 
time.
    Despite the wisdom of this approach and the positive result 
of PVO Title II development programs, returning year after year 
with short-term food aid to meet emergency needs has become the 
mainstay of the Title II program. And we fully support food aid 
for urgent needs and disaster response, but for areas where 
chronic hunger is prevalent and food shortfalls are common due 
to poverty, remoteness or seasonal crises, being ahead of the 
curve with well-planned, comprehensive development food aid 
program is the best approach, thus limiting or diverting funds 
from development programs to emergencies is counterproductive, 
in our opinion.
    Moreover, there are other options for addressing urgent 
needs if Title II funds are already committed. Non-emergency 
Title II programs, which are primarily conducted by private 
volunteer organizations, maximize the benefits of food 
assistance by combining food aid with skills development, 
technical assistance, capacity-building for the very poor, 
crisis-prone communities. Maternal and child hunger is reduced, 
livelihoods are expanded, and community resilience is improved.
    A USAID-commissioned independent evaluation of over 100 
Title II programs conducted from 2002 to 2009 confirmed these 
and other positive impacts in very poor and highly vulnerable 
communities. We are therefore thankful to this Committee and 
the Congress for establishing that minimum level of $350 
million for these food for development programs in 2004 Farm 
Bill.
    We also are grateful that the farm bill increased the 
maximum level for the Section 202(e) program support from 13 to 
20 percent and expanding the purposes so these funds can be 
used for developmental capacity-building activities. Such 
activities make possible lasting change by not just giving a 
person a fish but teaching people how to fish.
    As an example, in these eastern part of the Democratic 
Republic of Congo, in one small region, the Nyalugana Valley, 
Food for the Hungry has converted 914 hectares. That's over 
seven times the size of the National Mall of valley land that 
was previously not arable into productive fields bringing 
sustainable crop production livelihoods for over 13,000 
households, and that is just one area and one program, and 
there are many programs like that.
    Another example is the high mountain of the Amhara region 
of Ethiopia which is home to 31 percent of that country's food-
insecure population. Food for the Hungry's Title II program 
started in 2011 and is reaching more than 300,000 households, 
facilitating terracing, reforestation, rainwater catchment, 
restoring the springs and on and on.
    Volunteer cascade groups and care groups are reaching over 
30,000 young mothers with vital health and nutrition and over 
8,400 mothers in our program in Ethiopia participate in village 
savings and loans programs, precursors to microfinance. Ninety-
one percent of beneficiaries increase agricultural production, 
which is also responsible for an 88 percent increase in dietary 
diversity and improved nutrition stores. As we can see, these 
programs go far beyond mere food.
    So thanks to this Title II development program and others 
like it, during the 2012 food crisis, 7.6 million fewer 
Ethiopians needed emergency food relief.
    We wish to acknowledge and thank this Committee's 
leadership in reauthorizing international food aid programs in 
the 2014 Farm Bill, preserving this unique and important U.S. 
Global Food Security Program and making it even more effective 
and efficient.
    We appreciate this opportunity to testify and certainly 
welcome the opportunity to answer questions and provide further 
information.
    Thank you.
    [The prepared statement of Mr. Koach follows:]

   Prepared Statement of Lucas Koach, Director of Public Policy and 
            Advocacy, Food for the Hungry, Washington, D.C.
Food for Peace, McGovern-Dole International Food for Education and 
        Child Nutrition, Food for Progress, Bill Emerson Humanitarian 
        Trust and the USDA Local and Regional Procurement Program
    Mr. Chairman, Food for the Hungry appreciates this opportunity to 
present testimony today on the value and importance of U.S. food aid 
programs that address emergency needs and promote food security in 
developing countries. Food for the Hungry is a private voluntary 
organization (PVO) and also a faith-based organization (FBO) that walks 
with communities in need around the world, providing assistance in 18 
countries. Our approach is partnering, helping people identify and 
address the impediments to development and then to build their capacity 
through skills development, increased economic opportunity, greater 
ability to engage their government officials and improved access to 
water, food, education, health care and other vital services. We are 
grateful for the generosity of the American people who contribute funds 
to our organization and we are grateful to Congress, which has 
consistently supported food aid and other programs that uplift the 
needy.
    In developing countries, one in eight people are chronically 
undernourished (FAO, 2014), which decreases productivity and increases 
susceptibility to disease. Insufficient nutrition during pregnancy and 
in the first 2 years of life increases the chances of child mortality 
and stunts cognitive and physical development (Black, et al., 2013). In 
addition, millions of people urgently need assistance because of wars 
and natural disasters. Improving agricultural productivity and the 
availability of wholesome, sufficient foods through well-functioning 
food systems in developing countries is the long-term solution, but for 
now, U.S. food assistance is critically needed.
     Many of the communities we serve are in areas where there are few 
opportunities for expanding business and incomes. Struggling to meet 
basic needs is a way of life. In such areas, cyclones, droughts, soil 
erosion, remoteness, poor water and sanitation are among the types of 
challenges that keep people from feeding their children good diets and 
improving their lives. Helping people become food secure is a priority. 
Assuring people have access to and can consume sufficient food to meet 
nutritional needs is a prerequisite for a healthy, productive life, 
economic growth, and, in a larger sense, peace and prosperity.
    Thanks to the steadfast support of the U.S. Congress, the United 
States is the leader in fighting world hunger and promoting peace and 
prosperity through its long-standing commitment to food assistance. 
Indeed, our country's leadership is demonstrated through its commitment 
of $1.6 billion a year under the international Food Assistance 
Convention. This is 66 percent of total governmental pledges. The next 
largest pledge, by the European Union and its member countries, is \1/
4\ the U.S. level--only 17 percent of the total.
    All of the food aid programs under the jurisdiction of the 
Agriculture Committee are vital for meeting the range of the needs. 
While many know of the use of food aid to meet urgent needs, the 
overall goal of food aid is to provide food where and when needed and 
also to build self-reliance in order to reduce the future need for 
emergency food aid. Thus, Food for Peace, Food for Progress and 
McGovern-Dole International Food for Education and Child Nutrition 
include technical assistance and capacity building to allow food 
insecure countries and crisis-prone, poor communities move from 
subsistence to self-reliance, so their populations may lead healthier 
and more productive lives. The farm bill's USDA Local-Regional 
Procurement Program also offers a new opportunity to integrate local 
ingredients into food aid and, if well planned, to stimulate local 
production and processing of nutritious foods.
Important Role of Food for Peace (P.L. 83-480 Title II)
    P.L. 83-480 is the most reliable program worldwide for fighting 
acute and chronic hunger. Countries that receive Title II food 
assistance have weak food and agricultural systems, limiting the 
availability of food. Producers in those countries face barriers as 
they seek to increase productivity and market their goods, including 
insufficient infrastructure, financing, agricultural inputs and 
services. Food safety is another difficulty. For example, aflatoxin, a 
poison produced by fungi in the soil, is prevalent and poorly 
controlled in many corn, peanut and sorghum growing areas of Sub-
Saharan Africa. In addition, target countries do not commercially 
import sufficient amounts of food to make up for their internal 
deficits due to credit, foreign currency and other market constraints.
    In addition to high levels of child hunger that leads to stunted 
growth, most Title II populations live in areas with poor water, 
sanitation and health services. Infectious disease and intestinal 
parasites reduce nutrient absorption and productivity, and can 
ultimately lead to death.
    Over time, P.L. 83-480 Title II has been monitored, evaluated, 
adapted and improved and it continues to be one of the most effective 
instruments for reducing childhood malnutrition and fighting food 
insecurity. A more comprehensive list of bulk and packaged commodities 
and processed foods is now available, such as nut-based, high-energy 
pastes to treat severe acute malnutrition and Corn Soy Blend Plus, 
which is formulated to supplement diets of children between the ages of 
6 and 24 months and to prevent malnutrition. A March 5, 2014 General 
Accountability Office (GAO) report found that in the past 6 years, the 
timeliness of P.L. 83-480 Title II food aid deliveries for emergencies 
has improved due to the pre-positioning of commodities at multiple 
strategic locations around the world. It suggests ways in which USAID 
could use pre-positioning even more effectively. Implementing agencies 
(USAID and USDA) should be encouraged to continue to take steps to 
improve commodity procurement, transportation and supply systems.
Title II Food for Development: From Subsistence to Self-Reliance
    Section 201 of the Food for Peace Act lists seven purposes of Title 
II and six of them focus on using food aid in programs that address the 
underlying causes of chronic hunger and help people lead more 
productive lives. The premise is straightforward: Regions where there 
is extensive poverty, poor infrastructure and chronic hunger are prone 
to crises. When food aid is integrated into programs that help 
vulnerable households and communities become more food secure and self-
reliant, they are less likely to need repeated humanitarian 
interventions over time.
    Despite the wisdom of this approach and the positive results of PVO 
Title II development programs, returning year-after-year with short-
term food aid to meet emergency needs has become the mainstay of the 
Title II program. We fully support food aid for urgent needs and 
disaster response, but for areas where chronic hunger is prevalent and 
food shortfalls are common due to poverty, remoteness or seasonal 
crises, being ahead of the curve with well-planned comprehensive 
development food aid programs is the best approach. When an emergency 
strikes, these are the most vulnerable populations. Even though 
progress may be made during better times, it is difficult for people to 
overcome hunger in their lives.
    Thus, limiting or diverting funds from development programs to 
emergencies is counterproductive. Moreover, there are other options for 
addressing urgent needs if Title II funds are already committed. The 
Bill Emerson Humanitarian Trust managed by the Commodity Credit 
Corporation is designed to provide commodities for urgent needs. USAID 
also uses International Disaster Assistance (IDA) funds for emergency 
food aid.
    Nonemergency Title II programs, which are primarily conducted by 
private voluntary organizations, maximize the benefits of food 
assistance by combining food aid with skills development, technical 
assistance and capacity-building in very poor, crisis-prone 
communities. Maternal and child hunger is reduced, livelihoods are 
expanded and community resilience is improved, all of which help reduce 
the future need for emergency aid. This was the original design and 
intent of the Food for Peace Act. A USAID-commissioned independent 
evaluation of over 100 Title II development programs confirmed these 
and other positive impacts in very poor and highly vulnerable 
communities. We thank this Committee and the Congress for establishing 
a minimum level of $350 million for these programs in the 2014 Farm 
Bill and urge vigilance to make sure it is met.
    We also are grateful that the farm bill increased the maximum level 
for the section 202(e) program from 13 to 20 percent and expanding the 
purposes so these funds can be used for developmental, capacity-
building activities. Such activities make possible lasting change by 
not just giving a person a fish, but teaching people how to fish.
    PVOs identify the factors that cause chronic hunger and seasonal 
spikes in hunger and to address them through development activities as 
well as supplemental foods. Preparing a Title II development program 
proposal typically takes 6 months, but it can take up to 1 year. PVOs 
invest significant organizational resources to conduct quantitative and 
qualitative field research to identify target populations based on 
health and nutrition criteria, income, assets, and the degree to which 
households can meet their own food needs and in-depth situational 
assessments to identify barriers to food security. PVOs develop program 
plans in consultation with the targeted communities, incorporating 
strategies that--

  (1)  During the course of the program (usually 5 years) will show 
            progressive, positive change, such as improvements in 
            mother-child nutrition and health, dietary and sanitation 
            practices, land reclamation, agricultural productivity and 
            marketing, household food supplies and incomes, and school 
            enrollment and attendance;

  (2)  Build local capacity and prepare communities, governments, 
            institutions and participants to continue activities, reap 
            benefits and decrease vulnerability to hunger after the 
            program is complete. For example, through Food for the 
            Hungry's Title II development project in Ethiopia, we have 
            a formal partnership with the Organization for 
            Rehabilitation and Development in Amhara (ORDA) in which 
            26,000 government and regional partners have been trained 
            in technical and leadership capacity. Thanks to the 
            developmental Title II programs, during the 2012 Ethiopian 
            food crisis, 7.6 million avoided severe hunger.

          Here are some examples of the types of program activities:

      <bullet> Locally-appropriate methods for improving child 
            nutrition: Nearly
              all Title II development program incorporate a maternal-
            child nutrition
              component. Local organizations are formed to support 
            better nutrition of
              women and children, use of latrines and other sanitary 
            practices, and the
              development and maintenance of clean water sources. The 
            practices used in
              households with nutritionally thriving children in 
            communities that other-
              wise suffer high rates of malnutrition can be identified 
            and used as positive
              examples. Community members volunteer to participate in 
            ``training of
              trainer'' sessions and to lead ``mothers clubs'' or 
            ``Care Groups'' that provide
              training and outreach within the community.

      <bullet> Stabilizing and improving agriculture, nutrition and 
            incomes:

                  Eastern Democratic Republic of the Congo (DRC) has 
                suffered with conflict for many years. Under a 5 year 
                Title II development program, Food for the Hungry uses 
                a variety of community-based mobilization, training and 
                technical assistance strategies to stabilize 
                populations in South Kivu and Katanga provinces, 
                improve nutrition and allow the communities to build a 
                more promising future. Beneficiaries include returning 
                refugees, internally displaced people, and more 
                permanent communities. Thousands of houses have been 
                built; farmers have increased production and incomes 
                due to training in improved agricultural practices and 
                linkages to markets; and the communities now have 
                access to a more diverse and abundant food supply. 
                Gender-based violence is being combated with innovative 
                media campaigns and nutritional support has been 
                provided to pregnant and lactating women and children 
                under 59 months old.
                  In just one region in the Nyalugana valley, working 
                with local community leaders, FH has converted 914 
                hectares (over seven times the size of the National 
                Mall) of valley land that previously was not arable 
                into productive fields bringing sustainable crop 
                production and livelihoods to over 13,000 households. 
                New markets are forming, roads are being built, and 
                clinics and schools are being constructed. FH recently 
                shared these encouraging results with DRC government 
                ministers and other key stakeholders in the capital of 
                Kinshasa this summer. In a country that has seen much 
                despair, there is much hope.
                  Amhara Region of Ethiopia is home to 31% of that 
                country's food insecure population and site of Food for 
                the Hungry's 5 year Title II program that started in 
                October 2011 to assist more than 300,000 food-insecure 
                individuals that cannot grow enough food to meet year 
                round needs. Due to low rainfall, infertile soil, 
                degraded mountainous environment and limited market 
                access, nine rural districts 350 km north of Addis 
                Ababa are particularly prone to chronic food 
                insecurity. Our food for work program uses food as 
                payment (5 days per month in return for 15 kgs of 
                wheat, 1.5 kgs of peas and .5 liters of vegetable oil) 
                on public works that are transforming the landscape 
                into productive land. It includes terracing, 
                reforestation, rainwater catchment to restore springs, 
                construction and maintenance of safe drinking water 
                sources, and agriculture rehabilitation. These natural 
                resource rehabilitation activities restore soil 
                fertility and the surrounding environment as part of 
                Ethiopia's Productive Safety Net Program. Volunteer 
                cascade groups and Care Groups are reaching 30,000 
                young mothers with vital health and nutrition 
                education. Over 8,400 mothers participate in village 
                savings and loan groups--precursors to microfinance. 
                Ninety-one percent of beneficiaries increased 
                agriculture production, which is also responsible for 
                an 88 percent increase in diet diversity and improved 
                nutrition scores. Seventy-five percent have improved 
                drinking water systems. Through the development of 
                farmer cooperatives, farmers now produce not only for 
                local needs, but for markets outside their communities. 
                As a result 89 percent increased their incomes.
The Evolution of McGovern-Dole Food for Education.
    When first started, McGovern-Dole was seen as a way to deliver 
school meals and take-home food packages to encourage more poor 
families to send both their boy and girl children to school. Household 
chores and the need for additional wage-earners were seen as key 
barriers to education. When developing needs assessments and program 
plans, it quickly became apparent that it was necessary to address 
other barriers to education, as well. Many schools were in disrepair 
and the curriculum and teaching methods were not very effective, which 
made parents question the value of an education. Thus, PVOs encouraged 
and were pleased by USDA's decision to address both the nutritional and 
educational value of the program. Because of PVOs' ability to tailor 
each program to address local needs and conditions and organize parent-
teacher associations, community-support organizations, community 
contributions, teacher training and curriculum improvement and other 
program enhancements, McGovern-Dole Food for Education programs have 
taken root and created sustainable benefits.
Food for Progress
    Also administered by USDA, Food for Progress provides commodities 
to countries that are enacting economic reforms to support improvements 
in their agricultural and food systems. Through partnerships with PVOs 
and others, this program uniquely targets specific challenges to 
expansion of vibrant agricultural systems and links farmers, processors 
and other in the food value chain in order to promote economic growth 
and food security.
    It also provides good examples of when and where monetization is a 
tool in the field of development especially for spurring stability and 
economic activity in net food-importing countries that, due to 
financial and market constraints, are not able to procure sufficient 
amounts of food on the world market. The primary purpose, therefore, is 
to meet commodity shortfalls in developing countries; however, through 
innovative programming, it can have additional economic benefits. For 
example, the current USDA Food for Progress program in Jordan is 
helping a U.S. ally that is hosting thousands of Syrian refugees meet 
its wheat shortfall, which the proceeds from the sale of the wheat can 
support continued growth in their agricultural economy--a double 
benefit from one contribution.
    We wish to acknowledge and thank this Committee's leadership in 
reauthorizing international food aid programs in the 2014 Farm Bill: 
preserving this unique and important U.S. global food security program 
and making it even more efficient and effective. We appreciate this 
opportunity to submit testimony and would welcome the opportunity to 
answer questions or provide additional information.

    The Chairman. Thank you.
    Mr. Didion.

   STATEMENT OF JOHN DIDION, CHIEF EXECUTIVE OFFICER, DIDION 
                   MILLING, JOHNSON CREEK, WI

    Mr. Didion. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee for inviting me to 
testify today. I am John Didion. I am the CEO of Didion Milling 
in Cambria, Wisconsin. I am providing an abbreviated testimony 
and asking that a full written testimony be included in the 
record.
    The Chairman. Without objection.
    Mr. Didion. My brother, Dow, and I founded Didion Milling 
back in 1971. We are a small family-owned business, employing 
about 250 people in a rural town in Wisconsin. Didion Milling 
is one of the world's largest producers of famine relief 
products for Title II Public Law 83-480 Food for Peace 
programs, the McGovern-Dole school programs run by USDA and 
USAID.
    Daily, we receive hundreds of loads of locally produced 
grain for milling into our specially designed facility for 
domestic and food aid products. When operating at capacity, we 
can produce over 800 million complete meals, products like 
corn-soy blend. CSB is a quality, nutrient-dense product 
packaged in USAID bags labeled ``From the American people'' 
with the symbol of the American flag.
    At Didion, we recognize our position in the food aid supply 
chain as a quality, low-cost producer and resource to the 
industry for USDA and USAID. Over the past couple of years, we 
have worked closely with USDA and USAID to develop a new 
product, Super Cereal Plus. Super Cereal Plus was initially 
used by the World Food Programme, packaged in a retail-sized 
bag intended for children of 6 months to 12 months of age. 
Super Cereal Plus is effective at reducing and reversing 
moderate acute malnutrition in children.
    The product launch of Super Cereal Plus has had its 
challenges. Super Cereal Plus was initially purchased with a 
lot of enthusiasm by USDA in 2014. The product has not been 
solicited for purchase since January of 2015. Our specially 
designed production line, costing millions of dollars, has sat 
idle for months.
    Our history with food aid, Food for Peace, McGovern-Dole 
school feeding programs is long standing. Our commitment is 
unwavering.
    Recent changes have us concerned about the future for the 
Food for Peace program. In 2004, USDA purchased over 200,000 
metric tons of CSB while in 2014 there has been less than 
60,000 tons purchased. Didion has adapted to the change and 
continues to participate in the program while others have opted 
out. We are most concerned about these changes on behalf of the 
needy recipients. Every night, over 800 million people go to 
bed hungry, and according to the World Food Programme, the 
trend has worsened over the last decade. In my opinion, the 
trend of declining food purchases and the increasing number of 
hungry people in the world is connected and it must be 
reversed. We can do better.
    Allocations for food aid have declined and there is now 
talk of converting more dollars to a greater proportion of the 
program to cash. It is my opinion that more cash, less food aid 
provided will jeopardize the Food for Peace program and put 
more needy lives at risk.
    On the surface it may seem more efficient to send cash 
rather than provide in-kind food. However, there are many 
considerations in in-kind food that make it superior to cash. 
In some instances, cash may actually cost the needy more than 
in-kind food. Cash is more susceptible to corruption. Products 
purchased with cash are not necessarily designed for at-risk 
populations. Cash will not have the same support from 
Americans, certainly not from the U.S. Corn Belt. Cash is 
impersonal and will not carry the same message to recipients as 
our bags do.
    Food for Peace and the McGovern-Dole school feeding 
programs have operated successfully for many decades as in-kind 
food deliveries. In-kind food aid puts our best foot forward as 
a country while creating and supporting American jobs in food 
production, rail transportation, stevedoring, maritime 
administration, and support of rural America.
    Over the 20+ years that Didion has participated in this 
program, we have reached out and provided more than a billion 
people in 35 different countries with a nutritious meal. I 
believe Food for Peace is a food program that works and a 
program that should be expanded with in-kind food aid.
    Thank you very much.
    [The prepared statement of Mr. Didion follows:]

  Prepared Statement of John Didion, Chief Executive Officer, Didion 
                       Milling, Johnson Creek, WI
    Thank you, Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee, for inviting me to testify at today's hearing. I am 
John Didion, CEO of Didion Milling in Cambria, Wisconsin. My brother, 
Dow, and I founded Didion Milling in 1971 and have worked closely with 
farmers and our customers, milling, processing and marketing grain 
products. Since then, we have expanded our operation several times; 
however, we are still a family-owned, small business employing 
approximately 250 people.
    At Didion, our vision is to develop great people and make quality 
products from grain. We develop and empower employees; driving decision 
making to the front lines to move our business forward. We have 
recently grown our food and industrial milling business by over 300% 
with this model. This growth would not be possible without dedicated 
employees committed to our vision. I live our mission and it is a key 
reason why we have chosen to participate in the Title II Food for Peace 
program (Food for Peace) to help provide quality food products for the 
development of people around the world.
    Over the last 20 years, we have been producing famine relief 
products. Our products include Corn-Soy Blend (CSB), Corn-Soy Blend 
Plus (CSB+), Cornmeal, Soy Fortified Corn Meal, Corn Soy Whey Blend, 
Fortified Vegetable Oil, and most recently, Super Cereal Plus for Food 
for Peace and McGovern-Dole school feeding programs. We are one of the 
world's largest producers of fortified blended foods for the U.S. 
Department of Agriculture (USDA) and U.S. Agency for International 
Development (USAID).
    We are incredibly proud of our role in transforming the corn and 
soybeans purchased from our local farmers into complete nutritious food 
products which are sent to hungry school children and others around the 
world. Every day we receive hundreds of loads of quality grain from 
local farmers for milling into specially designed food aid products, 
such as CSB+ and Super Cereal Plus. Both are high quality, nutrient-
dense products packaged in USAID bags labeled ``From the American 
People'' with a symbol of the U.S. flag.
    About 90% of the grain we purchase is grown within a 100 mile 
radius of our facilities; both farmers and employees take pride in 
helping to meet the humanitarian needs across the world with U.S. grown 
crops, and particularly with Wisconsin grown crops. When operating at 
capacity, Didion Milling can produce over eight million complete meals 
per day, shipped from our plant in rail cars and transported to various 
U.S. ports for distribution all around the world.
    Last week when Pope Francis addressed Congress, he said, ``The 
fight against poverty and hunger must be fought constantly and on many 
fronts, especially in its causes. I know that many Americans today, as 
in the past, are working to deal with this problem.'' Food for Peace is 
a very important part of the fight against hunger. It is a program the 
American people, farmers and businesses have taken pride in over the 
past 60 years, as it benefits so many who are in need around the world.
    At Didion we recognize our position in the food aid supply chain as 
a quality and low cost supplier as well as an industry resource for the 
USDA and USAID to help commercialize new products and implement 
suggested changes of the Food Aid Quality Review. We welcome those 
opportunities to have a lasting impact in the world by helping to 
deliver the best product with the best nutrition at the best value. We 
have a close working relationship with the USDA for the procurement of 
our products and with USAID for the formulation of existing and new 
products. We were the first U.S. supplier of CSB+ through our 
partnership with USDA and USAID. In coordination with USAID and Tufts 
University, we helped develop and produce Corn Soy Whey Blend. This 
product is currently being field-tested for acceptance and performance.
    Within the past year, we worked with USAID and USDA to 
commercialize and scale up our newest product, Super Cereal Plus. Super 
Cereal Plus was specially designed by the World Food Programme (WFP). 
The product is packaged in retail sized packaging to promote the 
dignity of recipients. Nutritionally, it is high in fat and protein, 
containing both animal and vegetable proteins. It is fortified with 
vitamins and minerals such as vitamin a, iron, iodine and zinc along 
with many others. This vitamin and mineral profile will promote 
cognitive development and growth, strengthen the immune system and 
reduce the occurrence of blindness. The intended recipients are kids 6 
months to 24 months as well as pregnant and lactating women. WFP has 
been purchasing this product internationally for years; however, it had 
not been produced in the U.S. until late last year. As the food aid 
basket evolves, we remain committed to working closely with USAID and 
USDA to produce high quality, safe and nutritious products, like Super 
Cereal Plus, that will meet the needs of many around the globe.
    However, this product evolution is not without its challenges. 
Super Cereal Plus was initially purchased with a lot of enthusiasm by 
USDA and USAID. A few short months later, there are questions about the 
future of the product being produced in the U.S. USAID country 
directors, private voluntary organizations and program managers seem 
uninformed about the product and its availability. For example, the 
majority of food basket items have a robust document on the USAID 
website with the intended use, suggested serving size and expected 
outcome for program managers. Unfortunately, this document is absent 
for Super Cereal Plus. Because of this, the product stayed in the 
warehouse at port for months without any movement, preventing any 
additional procurement of the product. The product has not been 
solicited for purchase since January 2015. Now our specially designed 
production line has sat idle for over 5 months. Lengthy production 
interruptions strain our ability to be a low cost producer. More 
importantly over 18 million meals were delayed for about 6 months.
    Our goal is to produce the most cost efficient quality product to 
reach as many recipients as possible. Recently, we added an ethanol 
plant to our mill to support this cost efficiency effort. Our 
proprietary process selects the best parts of the kernel of corn for 
food products and sends the balance of the kernel to our biofuels plant 
to produce ethanol. This unique system helps to deliver the highest 
value for all parts of the kernel of corn and optimize our natural 
resources. This benefits our customers and reduces our carbon 
footprint.
    Our history with the USDA and USAID is long standing and our 
commitment has been unwavering. Recent changes have us concerned about 
the future of Food for Peace. In 2004, the USDA purchased over 200,000 
MT of CSB, while in fiscal 2014 there was less than 60,000 MT of CSB/
CSB+ purchased. We have successfully adapted to this change and 
continue to participate in the program while others have opted out. We 
are most concerned about these changes on behalf of the needy 
recipients. Every night over 800 million people go to bed hungry and 
according to the WFP, the trend has worsened over the last decade. The 
progress made in the 1980s, 1990s and early 2000s through the strength 
of Food for Peace has been slowed. I believe in our products as well as 
the rest of the U.S. products in the food aid basket. I know fortified 
blended foods are safe, high quality, nutrient dense and cost effective 
products that improve the lives of recipients. Processed and bagged 
products promote the generosity of the American people by being labeled 
``From the American People'' with the symbol of the U.S. Flag.
    Now the discussion has turned to converting a greater portion of 
the program to cash. I believe a movement to more cash will jeopardize 
Food for Peace and put more lives at risk. On the surface, it may seem 
more efficient to send cash rather than provide in kind food; however, 
there are many considerations which make in kind food superior to cash:

  <bullet> Cash may actually cost more than in-kind food. According to 
        a study conducted by the WFP in Niger, cash support costs four 
        times as much as an in kind food aid delivery of a specially 
        designed product like CSB+ or Super Cereal Plus.

  <bullet> Cash does not always reach the intended recipients. 
        Corruption is a concern and a recent GAO report concluded 
        controls need improvement.

  <bullet> The products purchased with cash are not necessarily 
        designed for the at-risk populations and could leave children 
        with unmet nutritional needs.

  <bullet> Cash would not have the same support from the U.S. Farm 
        Belt.

  <bullet> Cash is impersonal and will not carry the same message to 
        recipients as bags labeled ``From the American People'' with 
        the symbol of the U.S. Flag.

    Food for Peace has operated successfully for many decades with in 
kind food deliveries, now supplemented by the McGovern-Dole school 
feeding program. In kind food aid puts our best foot forward as a 
country while creating and supporting American jobs in food production, 
rail transportation, stevedoring, and maritime; it also supports 
American agriculture. Over the 20+ years Didion has participated in 
these programs, our products have reached and helped serve a complete 
nutritious meal to over a BILLION people in over 35 different 
countries. We use the phrase ``The Didion Difference'' to explain our 
great people, quality products and exceptional service. We are proud 
``The Didion Difference'' has had a positive impact on lives of the 
needy around the world. We ask all parties to work together to find and 
implement cost and time savings so we can reach more needy recipients. 
We believe Food for Peace is a food program that works and a program 
that should be continued with in kind food aid.
    Thank you very much. I am happy to answer any questions you may 
have.

    The Chairman. Thank you.
    Mr. Peanick, 5 minutes.

   STATEMENT OF JEFFREY L. PEANICK, CHIEF EXECUTIVE OFFICER, 
               BREEDLOVE FOODS, INC., LUBBOCK, TX

    Mr. Peanick. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members of the House Agriculture Committee. I 
would like also to recognize retiring Vice Chairman Neugebauer 
and thank him for his service to our 19th Texas District and to 
our country.
    Thank you for inviting me here to testify about the role 
Breedlove Foods plays in providing global humanitarian aid. We 
are a nonprofit food processor, and since our founding in 
Lubbock in 1994, we have provided humanitarian relief to some 
65 countries and produced over 1.5 billion servings of 
nutritious food for the hungry.
    My name is Jeff Peanick, and since this past April, I have 
been entrusted to carry on this good work as the CEO of 
Breedlove Foods. Although I am new to Breedlove, since 1978 I 
have been engaged in international trade with Asia, Europe and 
Latin America, and have served as a senior executive in North 
America and overseas in Europe and in the Middle East.
    As a young man, I was privileged to grow up on a farm in 
the beautiful Missouri Ozarks, and although my career has taken 
me far from those beloved Ozark hills, I still consider myself 
first and foremost a farmer, and no doubt some of you feel the 
same way about your agricultural roots.
    Since first partnering with Food for Peace in 2001, grants 
to Breedlove from USAID have funded over 22,500 metric tons of 
nutritionally fortified food to feed the hungry in 65 
countries. To put this effort in perspective, however, I would 
cite some recent statistics on world hunger from the World Food 
Programme.
    Poor nutrition causes nearly \1/2\ of deaths in children 
under age 5. That is 3.1 million children each and every year. 
One in four of the world's children are stunted physically or 
mentally.
    Breedlove is a small food processor with just 54 employees, 
and when confronted with the enormity of the world hunger 
problem, I am reminded that Jesus' disciples faced a similar 
dilemma. In reference to feeding the 5,000 with five barley 
loaves and two fishes, the disciples asked, ``What are these 
among so many?''
    Solving world hunger requires taking a first step. This 
past August, Breedlove was privileged to host 40 4-H students 
from Nicaragua. Some of these students were beneficiaries of 
Breedlove's feeding programs from 2002 to 2010 with Fabretto, 
our PVO partner. Food insecurity in Nicaragua is a serious 
problem with 22 percent of the children unable to reach their 
expected height due to malnutrition and stunting. In response, 
Fabretto implemented a school lunch program that provides 
students with a nourishing meal every weekday. Fabretto also 
prepares future community leaders by teaching primary and 
secondary students about sustainable agriculture through hands-
on models such as 4-H clubs. Some might ask, what are 40 
children among so many. To them, I would recount this story. 
Once upon a time there was an old man who used to go to the 
ocean to do his writing. Early one morning he was walking along 
the shore after a big storm had passed and found the beach 
littered with starfish. Off in the distance he saw a young boy 
occasionally stooping down and picking something up and 
throwing it into the ocean. As he approached him, he said, 
``Young man, what is it you are doing?'' The young paused, 
looked up and replied, ``Throwing starfish into the ocean.'' 
When the sun gets high, they will die unless I throw them back 
into the water.'' The old man replied, ``But there must be tens 
of thousands of starfish on this beach. I'm afraid you won't 
really be able to make a difference.'' The boy bent down, 
picked up yet another starfish and threw it as far as he could 
into the water and he turned and smiled and said, ``It made a 
difference to that one.''
    The Food for Peace initiative can and does make a 
difference. The Fabretto feeding program certainly made a 
difference to those children from Nicaragua.
    Some of those in America helped today in turn might revile 
us in the future and the values we stand for. For those who 
begin to ask this question, I would invoke Mother Teresa's 
memory with a quote from her Anyway poem. ``If you're kind, 
people may accuse you of selfish ulterior motives. Be kind 
anyway. The good you do today, people will often forget 
tomorrow. Do good anyway. You see, in the final analysis, it is 
between you and God. It has never been you and them anyway.''
    So yes, there may be those that seek to return evil for the 
food that America does such as Food for Peace. Nevertheless, we 
should stay the course anyway. We must remain true to American 
virtues and continue to share the blessings that God has 
bestowed on our great nation, for in the children we feed today 
lies the future of many developing nations, future friends of 
America, and future friends of our children.
    In closing, I wish to thank the Committee for allowing 
Breedlove to continue our mission where we have clearly seen 
the faces of children we have saved and can proudly say that we 
made a difference to the Fabretto children of Nicaragua. May 
God continue to bless this good work and may He continue to 
bless America.
    Thank you.
    [The prepared statement of Mr. Peanick follows:]

  Prepared Statement of Jeffrey L. Peanick, Chief Executive Officer, 
                   Breedlove Foods, Inc., Lubbock, TX
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
Members of the House Agriculture Committee. I would also like to 
recognize the Vice Chairman, Congressman Neugebauer who also happens to 
be my Congressman. We we're all sad to hear of your intent to retire, 
and I want to thank you for your service to our 19th district in Texas 
and to our country.
    Thank you all for inviting me here today to testify about the role 
that Breedlove Foods plays in providing global humanitarian aid. 
Founded in 1994, Breedlove is a nonprofit humanitarian food aid 
processor dedicated to hunger relief throughout the world.
    My name is Jeff Peanick and since this past April, I have been 
entrusted to carry on the good work as the CEO of Breedlove Foods. 
Although I am new to Breedlove, since 1978 I have been engaged in 
international trade with Asia, Europe and Latin America, and have 
served as a senior executive in North America and overseas in Europe 
and in the Middle East. As a young man, I was privileged to grow up on 
a farm in the Missouri Ozarks and was an active 4-H member. Although my 
career in international business took me far from those Ozark hills, my 
agricultural roots remain with me.
Breedlove Foods Background
    Breedlove Foods, Inc. is a 501(c)(3) nonprofit humanitarian food 
aid organization located in Lubbock, Texas. Since it's beginning in 
1994, Breedlove has focused it's efforts as a nonprofit organization on 
providing nutritious food aid items to planned feeding programs, 
improved nutrition programs, emergency preparedness, and emergency 
relief operations. This is accomplished by working with various Private 
Volunteer Organizations (PVO's) throughout the world to determine 
specific program needs and distribute humanitarian food aid. Breedlove 
works with both private and government funding sources in order to 
develop food aid items that deliver sound nutrition, to the most 
people, at the lowest cost to our partners.

    Since Breedlove began operations in 1994, approximately 1.5 Billion 
servings of shelf-stable, prepackaged food aid has been shipped to 
approximately 80 partnering PVO's, in more than 65 countries. It is 
safe to say this would not have happened without the vision of the 
House Agriculture Committee in promoting the International Food Relief 
Partnership Act, nor without the good work of USAID.

    Employing more than 50 people, we operate 5-7 days per week with up 
to three shifts each day. Production capacity includes a drying line 
(110,000 pounds of raw product per day), four dry blending and 
packaging lines (192,000 pounds of finished product per day), a paste-
pouch packaging line (20,000 pounds of finished product per day), over 
30,000\2\ of warehouse space, and four shipping bays to accommodate 
multiple types of transportation.
    Breedlove combines expertise in food technology, manufacturing, 
logistics, and program implementation to provide the most appropriate 
food aid to partner organizations. Since it's beginning, Breedlove has 
focused on research and development of nutritious food aid products 
specifically for use in various types of humanitarian programs. Simple 
packaging helps to keep costs low for our partners; however, labeling 
can be customized to best suit the needs of the partner and the end 
user. Preparation requirements vary from ready-to-eat convenience 
pouches to minimal boil and serve soup blends; and Breedlove food aid 
items are packaged in such a way that makes shipping and handling very 
convenient for both the distribution personnel and the end recipient.
    Breedlove food aid items have a long shelf-life, a highly dense 
number of servings requiring minimal storage space, and require only 
routine non-perishable food storage management. Products include 
various types of Vegetable Blends, Lentil Vegetable Blends, Rice 
Blends, other legume and pulse blends, nutritionally fortified Dry 
Drink Blends, and nutritionally fortified Ready-to-Eat pastes in 
convenience pouches. Breedlove looks to both staple commodities 
(soybeans/soybean products, rice, lentils, beans, peas, peanuts, dried 
vegetables--potatoes, carrots, onion, etc.) and innovatively processed 
and fortified products to develop nutritionally impactful food aid 
products.
    Throughout the years, Breedlove has developed a variety of 
products, taking into consideration cultural preferences, program 
needs, nutritional needs, as well as other factors affecting logistics 
and costs, all to provide the right food aid to those in need of 
assistance.
Breedlove Foods' Partnership with Food For Peace
    In 2001, Breedlove Foods began its partnership with the U.S. Agency 
for International Development (USAID) to provide hunger relief through 
the Office of Food For Peace programs. Breedlove implemented a unique 
approach by offering nutritious blended foods. The strategy was to 
provide staple commodities, like rice, lentils, potatoes along with 
soy-based fortified textured vegetable protein and other nutritious 
vegetables like carrots and onions. These blends were formulated to 
provide nutrition first, but also to be adaptable to cultural 
preferences. Breedlove's food has been called ``nutrition with 
dignity.''

    Under our USAID/Food For Peace programs alone, Breedlove has 
partnered with 49 other U.S. Nonprofit organizations_many of them 
community and faith based_in 48 countries, providing 22,500 MTs, over 
1.1 billion servings of Breedlove food aid to those in need. This has 
leveraged another 10,060,000 servings of nutritionally fortified peanut 
paste delivered through other non-Federal forms of assistance.

    Our partnership with Food For Peace enables Breedlove and PVOs to 
collaborate in a wide range of program activities, including small 
scale emergency and relief activities, institutional and hospital 
feeding, feeding children in schools, food for orphans, safety net 
assistance for needy communities, the elderly, supplemental food in for 
those dealing with severe illnesses, and many others.
    Our innovative and expeditious programs with Food For Peace have 
increased our ability to serve the needy and destitute. The objectives 
of these programs have grown--adding new types of fortified products, 
engaging the private sector, rapid response to natural disasters and 
civil strife, and increasing outreach to small organizations typically 
new to collaborating with USAID. Our programs have served as a catalyst 
for introducing new products, and a model for conceptualizing pre-
positioning of aid commodities for emergencies. Both processors and 
distribution partners bring additional resources in the form of other 
matching funding or in-kind asset use, personnel, administration, 
services, and development activities to projects. Distribution partners 
educate, shelter, tend to the sick, give technical/vocational training, 
teach life skills, and perform many more program activities that 
contribute beyond simply feeding, thus reducing the factors that lead 
to poverty and food insecurity.
    U.S. international food aid programs facilitate partnerships: 
between Food For Peace and nonprofit processors like Breedlove, between 
our nation's great agricultural producers and the word's most 
vulnerable and food insecure. U.S. international food aid programs have 
allowed Breedlove Foods and The Office of Food For Peace to engage more 
small organizations in nimble program partnerships, increasing outreach 
to those in need--children, mothers, families, the elderly, and the 
ill.
The Importance of U.S. International Food Aid
    Breedlove Foods is a small food processor with just 54 employees. 
When confronted with the enormity of the world hunger problem, we 
realize the importance of our partnerships through U.S. international 
food aid.
    According to statistics on World Hunger from the World Food 
Programme:

  <bullet> Some 795 million people in the world do not have enough food 
        to lead healthy, active lives.

  <bullet> Poor nutrition causes nearly \1/2\ (45%) of deaths in 
        children under 5, 3.1 million children each year.

  <bullet> One out of six children--roughly 100 million--in developing 
        countries is underweight.

  <bullet> One in four of the world's children are stunted. In 
        developing countries the proportion can rise to one in three.

    Solving the world hunger problem requires a first step. In August, 
Breedlove was privileged to host 4-H students from Nicaragua following 
their tour of Washington, D.C. Some of these 40 students were 
beneficiaries of Breedlove's feeding programs from 2002 to 2010 with 
Fabretto Children's Foundation, a partner with Breedlove through food 
aid programs with Food For Peace (photos attached). The ramifications 
of food insecurity in Nicaragua are serious, with 23% of children 
unable to reach their expected height due to stunting. In response to 
high rates of undernourishment in Nicaragua, Fabretto Children's 
Foundations implements a school lunch program that provides students 
with a nourishing meal every weekday. Fabretto also prepares future 
community leaders by teaching primary and secondary students about 
sustainable agriculture through hands-on models such as 4-H clubs.
    As we all visited that afternoon at Breedlove in Lubbock, Texas, 
the signs of hunger without intervention could be seen clearly. Two 
boys approached us to express their gratitude for hosting them that 
day, but also for much more. One boy stood as tall as a normal growing 
teenage boy--the other, a small-framed boy that appeared to be 8 or 9 
years old. Both boys had been recipients of the food aid programs. The 
smaller boy did not receive nutritional intervention soon enough to 
avoid stunting--he actually is a teenager, close to the same age as the 
other boy. The Fabretto feeding program certainly made a difference to 
those 40 children!
Closing
    What difference does U.S. international food aid make? Does a 
soybean farmer in Illinois or a rice grower in Arkansas or a lentil 
farmer in Minnesota touch the lives of at risk children in Nicaragua or 
wasting mothers in Africa?
    Yes. U.S. international food aid through Food For Peace can and 
does make a difference.
    There may be those that seek to marginalize the good that America 
does. But among the children we feed today lies the future of all 
developing nations, and the future friends of America and our children.
    In closing, I wish to thank our leaders for allowing Breedlove to 
continue our mission. For we see the faces of children we have saved 
and can proudly proclaim that we made a difference.
    Breedlove looks forward to continuing its partnership with Food For 
Peace in international food aid programs.
    Chairman Conaway, Committee Members, we appreciate the opportunity 
to share Breedlove's story and to express our support of international 
food aid.
    Thank you.
                               Attachment

           Breedlove Partners in Food For Peace Programs (49)
------------------------------------------------------------------------
 
------------------------------------------------------------------------
A Call to Serve                      Hope Education Foundation
Amigos International                 International Crisis Aid
Batey Relief Alliance                International Medical Corps
Bless the Children                   International Partnerships for
                                      Human Development
Catholic Relief Services             International Relief Teams
Center for International Health      Joint Aid Management
ChildLife International              Legacy World Missions
Children's Hunger Fund               Medical Missionaries
Church of Bible Understanding        Nascent Solutions
CitiHope International               NOAH
Convoy of Hope                       OICI
Copro Deli                           Outreach Aid to the Americas
Counterpart International            Planet Aid
Cross International                  Project Concern International
Evangelistic International           Project Hope
 Ministries
Fabretto's Children Foundation       Resource & Policy Exchange
Family Outreach                      Salesian Missions International
Feed the Children                    Salvation Army WSO
Food for the Hungry                  Samaritan's Purse International
Food for the Poor                    SERV Ministries International
Global Hope Network                  Share Circle
Global Transitions                   United Methodist Committee on
                                      Relief
Haiti Vision                         Uplift International
Healing Hands International          World Help
------------------------------------------------------------------------


     Breedlove Food Aid by Country thru Food For Peace Programs (48)
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Angola                               Kyrgyzstan
Armenia                              Laos
Belize                               Lesotho
Bolivia                              Liberia
Burundi                              Malawi
Cambodia                             Mexico
Central African Republic             Moldova
Central Asia (Region)                Namibia
Congo                                Nicaragua
Dominican Republic                   Niger
Ecuador                              Peru
El Salvador                          Philippines
Ethiopia                             Romania
Georgia                              Senegal
Ghana                                Serbia
Guatemala                            South Africa
Guinea                               Swaziland
Haiti                                Tajikistan
Honduras                             Tanzania
India                                Uganda
Indonesia                            Uzbekistan
Kazakhstan                           Zambia
Kenya                                Zimbabwe
Kosovo
------------------------------------------------------------------------

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo credit to Breedlove Foods, Inc., August 2015. Fabretto 
        Children's Foundation and 4-H kids from Nicaragua visit 
        Breedlove Foods in Lubbock, Texas. Pictured, left to right top 
        row, Kevin Marinacci, 4-H student, Hope Floeck; left to right 
        bottom row, 4-H girl student, a stunted teenage 4-H student, 
        Elbia Galo.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Photo credit to Breedlove Foods, Inc., August 2015. Fabretto 
        Children's Foundation and 4-H kids from Nicaragua visit 
        Breedlove Foods in Lubbock, Texas.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
              
    The Chairman. Thank you, Mr. Peanick.
    Mr. Cowan, 5 minutes.

     STATEMENT OF WADE COWAN, PRESIDENT, AMERICAN SOYBEAN 
                  ASSOCIATION, BROWNFIELD, TX

    Mr. Cowan. Thank you, Mr. Chairman and Members of the 
Committee. I am Wade Cowan, a soybean farmer from Brownfield, 
Texas, and President of the American Soybean Association. We 
thank you for this opportunity to testify on the important role 
that U.S. farmers play in providing international food 
assistance, and the importance of addressing global food 
security in coming years.
    Since the inception of the Food for Peace program in 1954, 
U.S. farmers have played a vital role in ensuring the 
availability, quality, and nutritional value of commodities 
that feed the world's hungry. The American Soybean Association 
has a long history of supporting U.S. in-kind food assistance. 
Soybeans and soy products have been staples in the Food for 
Peace Program, which has provided food for more than 57 million 
people in 46 countries experiencing crises.
    U.S. commodities have been the backbone of the Food for 
Peace program's success in alleviating hunger in both emergency 
and development situations. USAID and USDA have established a 
strong framework to ensure that commodities procured from U.S. 
farmers and processed, easily used foods are shipped overseas 
to meet the needs of hungry people. This framework represents 
both the bounty of U.S. agriculture and the compassion of the 
American people. ASA strongly supports the use of U.S. 
commodities in emergency and development assistance, and 
opposes cuts in developmental food aid funding to offset 
shortfalls in emergency assistance.
    Along with other farm organizations and the Congressional 
Agriculture Committees, ASA participated in a comprehensive 
review of the food aid program during consideration of the 2014 
Farm Bill. After much debate among all interested parties, the 
farm bill included changes to the Food for Peace program, as 
well as inclusion of a new $80 million Local and Regional 
Procurement Program at USDA. These changes are still being 
implemented by both USDA and USAID, and their benefits remain 
under review. Accordingly, ASA believes it would be premature 
to reopen the farm bill and change the Food for Peace program 
yet again before a full assessment of the strengths and 
weaknesses of these recently enacted reforms has been assessed.
    Mr. Chairman, I would like to comment on the important role 
U.S. agriculture plays in international development assistance, 
and on the importance of enhancing this role. As this Committee 
knows, agriculture is the foundation of a nation's broader 
economy. The more successful a country's farmers and ranchers 
are in providing food and fiber, the more its society can 
diversify into other enterprises. And the more affluent a 
country becomes, the better able it is to improve its diet, 
including by importing agricultural products from the United 
States. This model has worked for developed and for emerging 
market economies alike. Where it hasn't worked to date is in 
the poorest countries, particularly in sub-Saharan Africa. In 
some of these countries, as much as 80 percent of the 
population is engaged in subsistence agriculture. These are 
also the countries where population growth is the highest, and 
where demographic pressures over the next 20 to 30 years risk 
outstripping economic growth and humanitarian assistance, 
destabilizing civil society, and increasing political unrest. 
ASA believes U.S. agriculture has much to contribute toward 
addressing this looming crisis.
    The Department of Agriculture, its extension service, and 
our land-grant institutions are well equipped to assist small 
holder farmers in increasing their yields and productivity. Our 
farmers have practical know-how and our agribusinesses have 
experience in how to build local markets. These resources can 
and must be more directly focused on the needs of the poorest 
countries through international development assistance efforts.
    ASA has been working for the last 15 years through the 
World Initiative for Soy in Human Health, or WISHH, to achieve 
these goals. More broadly, ASA has helped form a coalition of 
farm organizations, agriculture-based foundations, and 
development implementers to push for a more central role for 
USDA and our agricultural system in the U.S. international 
development programs.
    Our coalition recently sent a letter asking your Committee, 
the Committee on Foreign Affairs, and your counterparts in the 
Senate, to codify the role of USDA through a whole-of-
government approach to global food security. We want to thank 
you and your Committee for taking the time to review this 
important issue. It is vital for the Secretary of Agriculture 
to have a seat at the table with the Administrator of USAID in 
developing and implementing international development policies 
and programs that are focused on agriculture. We also believe 
that U.S. agricultural institutions and organizations that are 
guided by farmers can play a very important role in helping to 
transform agricultural systems and markets in food-insecure 
countries.
    Mr. Chairman, we stand ready to work with your Committee 
and the Foreign Affairs Committee to move legislation forward 
that will achieve a truly whole-of-government approach to 
global food security. Given the urgent and growing food 
insecurity of poor countries abroad and the need to make the 
most efficient use of limited resources, we believe this is an 
important priority that Congress should act on in the coming 
months.
    Thank you.
    [The prepared statement of Mr. Cowan follows:]

     Prepared Statement of Wade Cowan, President, American Soybean 
                      Association, Brownfield, TX
    Thank you, Mr. Chairman and Members of the Committee. I am Wade 
Cowan, a soybean farmer from Brownfield, Texas, and President of the 
American Soybean Association. We thank you for this opportunity to 
testify on the important role that U.S. farmers play in providing 
international food assistance, and the importance of addressing global 
food security in coming years.
The Food for Peace Program
    Since the inception of the Food for Peace program in 1954, U.S. 
farmers have played a vital role in ensuring the availability, quality 
and nutritional value of commodities that feed the world's hungry. The 
American Soybean Association has a long history of supporting U.S. in-
kind food assistance. Soybeans and soy products have been staples in 
the Food for Peace Program, which has provided food for more than 57 
million people in 46 countries experiencing crises.
    U.S. commodities have been the backbone of the Food for Peace 
program's success in alleviating hunger in both emergency and 
development situations. USAID and USDA have established a strong 
framework to ensure that commodities procured from U.S. farmers and 
processed, easily-used foods are shipped overseas to meet the needs of 
hungry people. This framework represents both the bounty of U.S. 
agriculture and the compassion of the American people. ASA strongly 
supports the use of U.S. commodities in emergency and development 
assistance, and opposes cuts in developmental food aid funding to 
offset shortfalls in emergency assistance.
    Along with other farm organizations and the Congressional 
Agriculture Committees, ASA participated in a comprehensive review of 
the food aid program during consideration of the 2014 Farm Bill. After 
much debate among all interested parties, the farm bill included 
changes to the Food for Peace program, as well as inclusion of a new 
Local and Regional Procurement Program at USDA. These changes are still 
being implemented by both USDA and USAID, and their benefits remain 
under review. Accordingly, ASA believes it would be premature to reopen 
the farm bill and change the Food for Peace program yet again before a 
full assessment of the strengths and weaknesses of these recently 
enacted reforms can be assessed.
Agriculture's Role in International Development Assistance
    Mr. Chairman, I would like to comment briefly on the important role 
U.S. agriculture plays in international development assistance, and on 
the importance of enhancing this role. As this Committee knows, 
agriculture is the foundation of a nation's broader economy. The more 
successful a country's farmers and ranchers are in providing food and 
fiber, the more its society can diversify into other enterprises. And 
the more affluent a country becomes, the better able it is to improve 
its diet, including by importing agricultural products from the U.S. 
This model has worked for developed and for emerging market economies 
alike.
    Where it hasn't worked to date is in the poorest countries, 
particularly in sub-Saharan Africa. In some of these countries, as much 
as 80 percent of the population is engaged in subsistence farming, 
where a family is barely able to feed itself, much less provide food 
for others. These are also the countries where population growth is the 
highest, and where demographic pressures over the next 20 to 30 years 
risk outstripping economic growth and humanitarian assistance, 
destabilizing civil society and increasing political unrest.
    ASA believes U.S. agriculture has much to contribute toward 
addressing this looming crisis. The Department of Agriculture, its 
extension service, and our land grant institutions are well equipped to 
assist small holder farmers in increasing their yields and 
productivity. Our farmers have practical know-how and our 
agribusinesses have experience in how to build local markets. These 
resources can and must be more directly focused on the needs of the 
poorest countries through international development assistance efforts.
Efforts To Support Global Food Security in Fragile Economies
    ASA has been working for the last 15 years through the World 
Initiative for Soy in Human Health, or WISHH, to achieve these goals. 
WISHH recently concluded projects in Afghanistan, Bangladesh, and 
Liberia, and is working in Ghana, Mozambique, Pakistan, and other 
countries to develop soy, food, feed and livestock value chains. More 
broadly, ASA has helped form a coalition of farm organizations, 
agriculture-based foundations, and development implementers to push for 
a more central role for USDA and our agricultural system in U.S. 
international development programs.
    Our coalition recently sent a letter asking your Committee, the 
Committee on Foreign Affairs, and your counterparts in the Senate, to 
codify the role of USDA through a whole-of-government approach to 
global food security. It is important for the Secretary of Agriculture 
to have a seat at the table with the Administrator of USAID in 
developing and implementing international development policies and 
programs that are focused on agriculture. We also believe that U.S. 
agricultural institutions and organizations that are guided by 
farmers--including our own WISHH program--can play a very important and 
positive role in helping to transform agricultural systems and markets 
in food-insecure countries.
    Mr. Chairman, we stand ready to work with your Committee and the 
Foreign Affairs Committee to move legislation forward that will achieve 
a truly whole-of-government approach to global food security. Given the 
urgent and growing food insecurity of poor countries abroad and the 
need to make the most efficient use of limited resources, we believe 
this is an important priority that Congress should act on in the coming 
months.

    The Chairman. Thank you.
    Mr. Warshaw, 5 minutes.

    STATEMENT OF JAMES WILLIAM WARSHAW, CHAIRMAN, FOOD AID 
 SUBCOMMITTEE, USA RICE; CHIEF EXECUTIVE OFFICER, FARMERS RICE 
               MILLING COMPANY, LAKE CHARLES, LA

    Mr. Warshaw. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee. I want to thank you for 
allowing me to testify today on behalf of the U.S. rice 
industry. My name is Jamie Warshaw. I am CEO of Farmers Rice 
Milling Company, a small milling company in Lake Charles, 
Louisiana, which employs about 90 people. I currently serve and 
testify today here for not only what I believe but also for the 
beliefs of the U.S. rice industry.
    In addition to milling rice for both domestic and export 
customers, Farmers Rice Milling has provided rice to feed 
hungry people as part of U.S. food aid programs globally for 
many years. Over the past 10 years alone, our mill has provided 
300,000 metric tons of rice to successful food aid programs 
such as USAID Food for Peace; USDA Food for Progress, and 
McGovern-Dole Food for Education. These programs have had 
measurable successes reducing hunger and malnutrition while 
also supporting education and democracy in vulnerable 
populations throughout this world.
    Over the past 60 years, the United States has provided 
significant quantities of food assistance, credited with saving 
billions of lives from starvation and malnutrition and 
fostering goodwill amongst the recipients of the aid.
    The U.S. rice industry plays a vital role in making this 
process work. Since 2007, over a million metric tons of rice 
have been delivered to hungry recipients in the form of global 
food assistance. To put it in perspective, that is 2.2 billion 
pounds of rice. Basically a serving is \1/4\ pound of rice, and 
we have reached ten billion people since 2007 through these 
feeding programs.
    By far, rice is the most consumed commodity in the world. 
Fifty percent of the people depend on rice for the majority of 
their caloric intake every day throughout this world.
    There are things happening in the rice industry that are 
changing and play a vital role in what we are doing, going 
forward, and that is fortification of rice, which provides 
eight critical micronutrients including iron and Vitamin A. One 
of the cutting-edge products that we are developing is 
fortified rice.
    USA Rice is continuing to work with USAID and USDA, and 
other aid organizations to increase the successful and 
effective use of fortified rice in food assistance. 
Unfortunately, despite all the efforts of the United States and 
other countries, there is still a significant number of people 
across the world that are considered food-insecure. I 
appreciate efforts by USAID and various Members of Congress who 
are looking for ways to make food aid programs more effective, 
but I have serious concerns about many of the policy proposals 
and reforms that have been laid on the table this year.
    In-kind food aid has been an essential part of the U.S. 
Global Food Assistance Program since its inception. When I sell 
rice from our mill to be used for food aid, I know it is grown 
in the United States, it is processed in the United States, 
packed in the United States and distributed in bags that 
feature the label, ``From the American People.'' This is a 
clear statement of the commitment the United States has to 
fighting global food insecurity and is a symbol that is 
intended to help foster international goodwill. A simple symbol 
is a huge benefit nonetheless.
    Proposed methods of replacing in-kind aid with cash 
vouchers or local and regional procurement have serious and 
extensively documented flaws. A recent internal audit of World 
Food Programme initiative and USAID's Emergency Food Security 
Program found that aid was being distributed in conflict zones 
like Syria with little to no oversight, in some cases via cash 
in envelopes. It doesn't take a Ph.D. in international studies 
to know that injecting cash with little to no monitoring of how 
it is used into a war zone will only lead to dangerous 
consequences. The lack of oversight and diversion of aid was 
also noted in the same audit of its cash voucher process.
    Another proposed reform to food aid programs is the 
utilization of local and regional procurement where commodities 
are purchased locally in food-insecure areas and distributed to 
needy recipients. By increasing the local demand for 
commodities, LRP can spike the cost of food, widen the circle 
of food insecurity, and turn many of those that could have 
afforded food prior to the intervention into recipients of food 
aid themselves.
    Additional issues with food quality and food safety 
concerns have arisen with products purchased overseas. In 2014, 
just a year and a half ago, a farm bill was signed. These 
proposed reforms of food aid would expose all the programs your 
Committee worked so hard to sign into law. It is important to 
me running an agricultural business and to the rice farmers 
that I serve that we work to keep the farm bill intact and 
maintain some sense of certainty over a 5 year period in its 
authorization. The continued delivery of in-kind food aid will 
help to avoid many of these potential consequences of program 
reforms.
    U.S. grown and processed commodities are without question 
the safest and highest quality products available, and what I 
feel is one of the most important distinctions, in-kind allows 
farmers to contribute something tangible to the benefit of 
those less fortunate across the globe. It is a program that I 
am proud to supply rice to, and I hope the Members of the 
Committee will continue to allow U.S. agriculture to play a 
central role in combating global hunger.
    Again, thank you for this opportunity to testify before 
you.
    [The prepared statement of Mr. Warshaw follows:]

    Prepared Statement of James William Warshaw, Chairman, Food Aid
 Subcommittee, USA Rice; Chief Executive Officer, Farmers Rice Milling 
                       Company, Lake Charles, LA
Introduction
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, I want to thank you for holding this important hearing 
regarding U.S. international food aid programs. I appreciate the 
opportunity to offer my testimony on behalf of USA Rice.
    My name is Jamie Warshaw and I am a native of Lake Charles, 
Louisiana, where I currently live and serve as the CEO of Farmers Rice 
Milling Company. I have been with Farmers Rice since 1986 and have 
managed the company and its nearly 90 employees as the CEO since 1996.
    In addition to my paid position, I have spent nearly the last 20 
years volunteering through leadership positions with USA Rice, the 
trade association and global advocate for all sectors of the U.S. rice 
industry. My most important role with the organization was several 
years ago when I served a term as the Chairman of the USA Rice 
Federation, overseeing the Rice Millers' Association, USA Rice 
Producers Group, USA Rice Merchants and the USA Rice Council.
    I currently serve as a member on several of the organization's 
boards and committees but most appropriately for today's hearing, I 
serve as the Chairman of the USA Rice Food Aid Subcommittee of the 
International Promotion Committee.
U.S. Rice Involvement in Food Aid
    In addition to milling rice for domestic consumption and for our 
export customers, Farmers Rice Mill has provided rice to feed 
populations in need as part of U.S. international food aid programs. 
Over the past 10 years alone our mill has provided 300,000 metric tons 
of rice to successful food aid programs such as the U.S. Agency for 
International Development's (USAID) Food for Peace, United States 
Department of Agriculture's (USDA) Food for Progress and McGovern-Dole 
Food for Education. These programs have had measurable successes 
reducing hunger and malnutrition while also supporting education, 
democracy, and agricultural development in vulnerable populations 
throughout the world.
    Over the past 60 years that the Food for Peace program has been in 
operation, the United States has provided significant quantities of 
food assistance, credited with saving billions of lives from starvation 
and malnutrition and fostering good will amongst the recipients of the 
aid.
    Rice plays a vital role in making this process a success. Since 
2007 over 1 million metric tons of rice have been delivered to hungry 
recipients in the form of global food assistance. As the most consumed 
commodity worldwide, rice is leading the way in developing new cutting-
edge products that not only meet the demands of hunger but also curb 
persistent nutritional deficiencies.
    Through the McGovern-Dole Food for Education Program, USDA 
conducted a series of micronutrient pilot programs. The first 
successful result was a school feeding intervention in Cambodia using 
fortified rice which provides eight critical micronutrients including 
iron and Vitamin A.
    USA Rice is continuing to work with USAID, USDA, and other aid 
organizations to increase the successful and effective use of fortified 
rice in food assistance.
    Unfortunately, despite all the efforts of the United States and 
other countries, there is still a significant number of people across 
the world that are food insecure. Therefore, I appreciate efforts by 
USAID and various Members of Congress who are looking for ways to make 
food aid programs more effective, but I have serious concerns about 
many of the policy proposals and reforms that have been laid on the 
table.
U.S. Food Aid Reform
    In-kind food aid has been an essential part of our nation's global 
food assistance programs since their inception many years ago. The 
label on our commodities alone carries some heavy significance. When I 
sell rice from our mill to be used for food aid, I know with confidence 
it will be grown in the U.S. and packaged and distributed in bags that 
feature the label, ``From the American People.'' This is a clear 
statement of the commitment the United States has to fighting global 
food insecurity and is a symbol that is intended to help foster 
international good will. While this may not be quantifiable and is 
often ignored by those that seek to make changes to the program, it is 
a benefit nonetheless that cannot be overlooked.
    Proposed methods of replacing in-kind aid with cash vouchers or 
local and regional procurement have serious and extensively documented 
flaws.
    A recent internal audit of World Food Programme initiatives and a 
Government Accountability Office (GAO) review of the Emergency Food 
Security Program administered by USAID exposed some of the flaws. The 
GAO report found that aid was being distributed in conflict zones like 
Syria with little to no oversight, in some cases via cash in envelopes. 
It doesn't take a Ph.D. in international studies to know that injecting 
cash with little to no monitoring of how it is used into a war zone 
will only lead to dangerous consequences. The lack of oversight and 
diversion of aid was also noted in the same audit of its cash voucher 
process.
    Another proposed reform to food aid programs is the utilization of 
local and regional procurement (LRP) where commodities are purchased 
locally in food insecure areas and distributed to needy recipients. By 
increasing the local demand for commodities, LRP can spike the cost of 
food, widen the circle of food insecurity and turn many of those that 
could have afforded food prior to the intervention into recipients of 
aid themselves. Additionally, issues with food quality and food safety 
concerns have arisen with products purchased overseas since they are 
not subject to the same extensive food safety regulations as U.S.-
produced food.
Conclusion
    As an industry we've invested significant capital, time and effort 
in being a timely and reliable supplier of food aid for the various 
program currently in use. Looking forward we are developing fortified 
rice and rice products aimed to reduce global hunger and malnutrition, 
particularly in women and children. We have had great success so far 
but as I said, global food insecurity is a challenge we're still 
facing. The continued delivery of in-kind food aid is necessary to help 
avoid many of these potentially serious consequences of program 
reforms.
    U.S.-grown and processed commodities are without question the 
safest and highest quality products available. And, what I feel is one 
of the most important distinctions is that in-kind food aid allows 
farmers to directly contribute something tangible to the benefit of 
those less fortunate across the globe.
    I am proud to supply rice toward international food aid programs 
and I hope that the Members of this Committee will continue to allow 
U.S. agriculture to play the central role in combating global hunger.
    Again, thank you for your leadership and for the opportunity to 
offer my testimony this morning. I look forward to working with you and 
your staff and will be happy to respond to any questions you might 
have.

    The Chairman. I thank the panel of witnesses.
    The chair will remind Members that they will be recognized 
for questioning in order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate the Members' 
understanding. And with that, I will break with tradition and 
go to the Chairman of the Subcommittee of jurisdiction, Mr. 
Rouzer, for 5 minutes.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Mr. Koach, my question is for you. As we continue to look 
at food aid programs, I can appreciate that there may be some 
examples when using cash or buying regionally can save money. 
However, in the Livestock and Foreign Agriculture Subcommittee 
just a few weeks ago, we heard from GAO about their March 2015 
report that found over a 4 year period, the World Food 
Programme implemented more than 80 percent of cash-based food 
aid programs under ``an abbreviated review process,'' which 
basically means they do not go through the more rigorous review 
required of U.S. nonprofit organizations.
    Now, that leaves me with concerns on whether we can 
guarantee that cash-based assistance is being effectively 
delivered to recipients, and given those concerns, can you 
share with me what kinds of challenges that you all have faced 
delivering cash and emergency aid response?
    Mr. Koach. Thank you, Mr. Rouzer.
    Food for the Hungry doesn't implement any cash or voucher 
programs. The programs that we are implementing currently are 
the development Title II programs under Food for Peace that I 
spoke at some length about. But nevertheless, your concerns are 
well cited. That GAO report does cite many concerns merely 
seeing the spike in the Emergency Food Security Program. The 
account that funds those has seen a 440 percent spike between 
Fiscal Years 2010 and 2014 from $76 million to over $409 
million, and so there is a lot of money going out through that 
program, and GAO's findings are sound and should be taken into 
advice that there needs to be a closer examination on how they 
are monitored, if there is indeed an open and thorough bidding 
process that goes with them that we do currently experience 
under traditional Title II provisions.
    Mr. Rouzer. Talk to me a little bit of how in-kind food aid 
has helped you achieve your goals.
    Mr. Koach. Sure. I like to say it is more than food, just 
as our name, Food for the Hungry. It is more than food, and 
that is sometimes where people get stuck. The Food for Peace 
Program, by statute is required that 75 percent of the 
commodities are to be used for developmental purposes. As I was 
citing, the inverse has become the case as we have had more 
emergencies come up around the globe and those developmental 
programs have unfortunately been whittled away. But we know 
that to use these resources in a smart way, we need to help 
build local capacity, and you have to work in a multi-sectoral 
fashion. So there is the food aid that is brought that are 
being used during the hungry months, during the often dry 
months where chronic hunger and severe malnutrition is a very 
pressing, urgent issue, but then the program support that comes 
with the programs, called the section 202(e) support, that is 
the money that is used for the programming to develop the 
maternal and child health care groups.
    If you go to caregroupsinfo.org, you will see at great 
length where this has been developed with tremendous science 
where community leaders are designated and identified to 
cascade very key health messages for lactating mothers and 
particularly for children under 2 and then under 5 and beyond. 
It includes restoring household assets so we have--often there 
are food for work programs, so we are doing that in the 
northern region of Amhara. Senator Stabenow recently visited 
with a group of Senators this summer to see that region where 
over 90 percent of Ethiopia has unfortunately experienced 
deforestation, and that is leading to tremendous erosion of 
topsoil. So while we are doing the immediate relief kind of 
work, we are doing reforestation to preserve topsoil so water 
tables are recharged and can bring recharged wells into those 
local communities.
    As we teach ag development inputs, we are seeing increased 
diet diversity scores. They are becoming healthier, and what is 
happening now, they are developing a surplus and now will be 
able to link those surplus of agricultural goods to local 
markets. We have savings groups. These folks can even access 
microcredit in small towns. They have literally village savings 
and loans groups.
    So, I would like to say our brand is important on the bag 
but the real branding of these programs is in these leaders. 
These programs are often designed by local communities, local 
faith leaders, local government leaders, local NGOs that we are 
helping raise and build up the capacity.
    The Chairman. The gentleman's time has expired.
    Mr. Peterson, for 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Ms. Dills, in your testimony you note that the GAO has 
concluded that monetization is an inefficient practice, but you 
also describe CRS monetization projects in Burkina Faso, 
Philippines, Tanzania and Nicaragua as a great success. Is it 
fair to say that the CRS regards monetization as a useful but 
imperfect tool to address humanitarian needs around the world, 
or what is your take on that?
    Ms. Dills. Thank you, Congressman Peterson.
    I actually had to monetize in Madagascar while I lived 
there for 3\1/2\ years, and I found it to be very extremely 
risky due to fluctuations in commodity markets, currencies, 
cargo preference requirements and getting the commodities to 
the country on time so that they could be monetized, as well as 
the political situation in the country. So from our 
perspective, we have had huge risk monetizing commodities in 
countries around the world. We barely made cost recovery 
efforts of 70 percent, and in some cases fell very short.
    Catholic Relief Services believes in serving the people 
that are greatest in need. If the only way we can receive funds 
is through monetization, we certainly will do that so that we 
can serve those people, but it is not how we would like to 
program. We appreciate that the Committee raised--the farm bill 
allowed for more flexibility with cash so that we could program 
these different interventions like with John Clement that I 
talked about. So it is a very risky business, and we certainly 
will continue to do it if it is the resource available to serve 
the people in need.
    Mr. Peterson. Thank you.
    Mr. Koach, you mentioned that local and regional 
procurement can integrate local ingredients in food aid if it 
is well planned and it can stimulate local production and 
processing. Can you give us some examples of where local 
procurement has worked well and how it stimulates local 
production and processing. Is it because it increases local 
demand and prices, and does it ever have an adverse effect on 
food security in those recipient countries?
    Mr. Koach. Yes. Again, just for the record, FH has not 
directly implemented a local and regional purchase program but 
we have studied this policy at length with many of our PVO 
colleagues. We applaud the USDA Local and Regional Purchase 
Program pilot, and we have seen very good indicators there. We 
certainly applaud the farm bill's authorization of LRP programs 
at $80 million and hope we will see appropriations towards 
those ends. And so there are good indicators that we are seeing 
from LRP schemes.
    I think we have to be cautious as we scale local and 
regional purchase as we have to screen for food safety concerns 
sometimes regionally or locally that don't quite meet the U.S. 
product standards. Aflatoxins, for example, can be an issue in 
some regions. And moreover, we want to make sure that they will 
continue to scale and these programs will be readily available 
in future appropriations.
    So we see good signs; but, as we look at local and regional 
purchase, we must be also cognizant--I know we are eager to 
save costs on how we can do food aid more effectively and 
efficiently--that most of local and regional purchase 
programming shipping costs are not in the transatlantic 
shipping, it is in the inland transportation shipping and 
handling, called ITSH. About ten percent on average, the pilot 
program found, was on the high seas transatlantic or 
transoceanic shipping. Most of it was incurred locally, and you 
are going to incur those either way.
    And oftentimes these commodities are not available locally. 
Sometimes it is presumed that you can just get that locally. 
Well, you can't always get them locally. And when you start 
going to regional schemes, then you are almost working on 
global markets where U.S. commodities could be relatively 
competitive in those types of schemes.
    So we applaud it. I want to see it encouraged, but we 
should continue to be cautious of some of those pieces.
    Mr. Peterson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Austin Scott, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    I only have one question, but before I ask that, I wanted 
to thank you for what you do and talk a little bit about a 
mission that was started by Mark Moore in Fitzgerald, Georgia. 
I don't know if any of you have seen this pack before but it is 
ready-to-use therapeutic food. It is three packs a day for 6 
weeks. It takes a child from being malnourished to certainly 
healthy by that part of the world's standards. I would suggest 
that this little pack, what they have done is, they have put 
peanut butter paste and milk powder and vitamins in here, and 
that little packet has 500 calories in it. Three packs a day 
for 6 weeks transitions that child from somebody who is quite 
honestly probably going to die to somebody who can have a 
healthy life.
    I know that we have talked about other people who are doing 
the same thing, but my question is, a group like MANA, we can 
manufacture enough in Fitzgerald, Georgia, they can manufacture 
enough in Fitzgerald, Georgia, for about 4,000 children per 
day. So it is not a matter of being able to produce what the 
people need with our technology and food supply in the United 
States, it is the logistics of getting it to the people who 
need it, and if you could just in general, are there barriers 
that we could help remove that you see? Are we doing things 
right with the logistics of getting the aid to the children who 
need it? I recognize this is one specific aspect, the severely 
malnourished children, but I am interested in any suggestions 
you have for us on how we do a better job with the logistics.
    Ms. Dills. Certainly, Congressman.
    I think that we have studied, and there is information 
available that using U.S.-flag vessels to ship food aid is more 
expensive than using foreign-flag vessels, and in some cases, 
it costs 2.7 times more to operate these vessels that carry 
U.S. flags to countries. I just wanted to give you a good 
example in Madagascar that I experienced this past year. We 
should have received eight shipments to the country for four 
different types of commodities. Unfortunately, because 
Madagascar, most people know it by the movie, not where it is 
actually located, it is a very difficult country to get to in 
the Indian Ocean and so U.S. vessels actually don't arrive in 
Madagascar; they unload in another port of call and they have 
to find another vessel to deliver shipments. So instead of 
receiving eight shipments, we received 23 shipments over 4 
months for what we called forward, and that increases huge 
amounts of cost at the port to clear commodities, the 
paperwork, storage, staffing. So this is where CRS is 
recommending to eliminate the requirements of the minimum 
tonnage that is calculated based on countries and geographic 
regions, and we also would like Congress to consider 
eliminating or reducing the minimum tonnage required to ship on 
U.S.-flag vessels. Thank you.
    Mr. Austin Scott of Georgia. Anybody else with any comments 
on that? If not, that is fine.
    Any specific recommendations that you have after the 
hearing is over, if you could get them to us in writing, I 
would very much appreciate that. I think that a lot of us would 
be certainly willing to help you resolve those issues. The goal 
is to help those children and those people, and if we have 
things that are barriers to that that are simple to remove, 
then we have a responsibility to do that.
    Mr. Didion. There are barriers to the development of new 
products. You have a good example of one. We have one in CSB or 
Super Cereal Plus. Those barriers are, my belief, in part the 
country or program directors don't even know that these 
products exist and that they are available for use. If there 
isn't a consistent ordering or consistent procurement, the cost 
of the product is driven much higher than it could be if we 
could operate consistently and efficiently.
    Mr. Austin Scott of Georgia. And any----
    Mr. Didion. And so--I am sorry.
    Mr. Austin Scott of Georgia. No, go ahead, please.
    Mr. Didion. And so to the extent that USAID could make the 
information more available on new products and their uses to 
program directors, it would be very productive.
    Mr. Austin Scott of Georgia. Mr. Chairman, my time has 
expired. If I could have the courtesy of one more quick 
comment?
    General Kelly, who I have a tremendous amount of respect 
for, from Southern Command, made one suggestion on the products 
that we deliver, and that would be that the American flag be 
prominently displayed on it, that the respect for the American 
flag overseas and understanding that that is a safe product 
being delivered by America. He felt that that American flag on 
the products would help.
    Thank you. I yield the remainder of my 1 minute that I ran 
over.
    The Chairman. The gentleman's time has expired.
    Mr. McGovern, for 5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman.
    Let me begin by thanking all of you for the incredible work 
that you do. It is lifesaving work, and it represents the best 
of this country, and so let me begin by saying thank you.
    I am interested, ultimately, in developing a strategy to 
end global hunger, not just to manage it or contain it or limit 
it, but to actually end it, and we need to understand that to 
do that, we need to scale up some of these programs. I mean, we 
are not investing enough, the world is not investing enough to 
get to the point where we can actually talk seriously about how 
we are going to eliminate hunger. We have all these different 
goals but somehow the resources don't always follow those 
goals.
    I have had the pleasure of visiting Food for Peace programs 
when I have traveled aboard, McGovern-Dole programs, Feed the 
Future programs, and I know that the demand is much greater 
than what we have available. There are dozens and dozens more 
applications for McGovern-Dole funds to set up school feeding 
programs in poor countries than there are resources available, 
and so we need to acknowledge that. And I do think that we 
ought to have a hearing at some point not just in the 
Agriculture Committee but maybe in conjunction with the Foreign 
Affairs Committee and Appropriations Committee about how do we 
develop a long-term plan to actually end this, end hunger, and 
it is not just a nice thought. It is doable and it is doable in 
a way that is sustainable, and a lot of the things you all 
talked about here today, that this is not just about delivering 
food to somebody and saying okay, we will feed you for a week. 
You are also involved in projects whether they are school 
feeding projects or development projects to help people be able 
to provide for themselves, to help school feeding programs be 
self-sustainable, to help provide help with local economies.
    We talk a lot about national security here in Washington, 
and that is what we are all obsessed with, but I think that our 
food aid programs do more to contribute to our national 
security than almost any other investment that we make. I know 
we have limited budgets and we have to prioritize but I mean, 
we ought to be thinking seriously about whether or not if the 
United States and other military powers around the world took a 
small percentage of what we invest in weapons and diverted it 
to some of the programs that you talked about whether or not we 
would be better off. I think we would be more secure. I think 
the world would be more stable. I think it would be less 
violent. And we would also be fulfilling our moral obligation 
to feed the hungry. But we need to make choices.
    And I want us to think bigger than just how do we tweak the 
programs that you all represent, and I appreciated your talks 
about some of the flexibility. I believe that you ought to have 
the maximum amount of flexibility as possible in delivering 
your programs because I have also learned that one glove 
doesn't fit all, and in some places there is a demand for U.S. 
commodities and other places it makes more sense for cash. In 
some places it is a combination of all kinds of things. But 
wherever you get the biggest bang for your buck, that is what 
we ought to be doing, and we ought to kind of stand out of the 
way and make sure that you get what you need.
    I also should say that we talk about increased funding. We 
ought to provide greater funding to Food for Peace on their 
emergency humanitarian side because every year there is a 
shortfall, and we are always in a panic when that happens, but 
we are facing the greatest refugee crisis in the world since 
World War II. I don't think anybody in this room actually 
believes that next year will be better. I hope I am wrong on 
that, but the odds are that it will be just as bad, nor that 
there will be fewer refugees and humanitarian crises due to 
conflict, war and natural disasters.
    I am running out of time here but we need to kind of 
enlarge this discussion to figure out how do we solve the 
problem of hunger, how can we scale things up, and how do we 
provide you with the maximum amount of flexibility so that 
whatever you are doing, you are doing it in the best possible 
way.
    Mr. Koach. Thank you, Mr. McGovern. It is a real honor to 
even hear from you. We know of your tireless activity around 
global hunger issues, as Chairman of the Congressional Hunger 
Caucus, and so your tireless leadership is of great value and 
of tremendous importance to this ongoing effort. So we thank 
you for your tireless activity.
    I think you are spot on and that we need to have an 
increased comprehensive strategy to eradicate extreme poverty 
in our lifetime. There are good indicators in the right 
direction but there are also tremendous challenges and crises 
like you said. We are now facing 60 million displaced persons 
around the globe, more than any other time since World War II, 
and we are cognizant and sobered by that.
    But I tell you, even because of that, not in spite of that, 
we need all the tools on the table to address this issue, and--
--
    The Chairman. Mr. Koach, I am going to ask you to suspend, 
and we will come back for a second round.
    Mr. Crawford, for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    I want to direct a question to Mr. Warshaw. I come from the 
largest rice-growing district in the country so I am very 
familiar with your business model. Given that rice is a staple 
for nearly \1/2\ the world's population, fortified rice, as you 
alluded to, seems to be a promising new commodity to address 
nutrient deficiencies in poor and hungry populations. Does the 
rice industry have the ability to provide a fortified variety 
of rice to food aid programs at this time?
    Mr. Warshaw. Thank you for the question.
    Yes, we do, and fortified rice has been around a long time. 
Everything that is served or you eat in the United States is 
fortified or enriched with certain micronutrients that make 
rice more nutritious. The same is happening now in the food aid 
program. We are developing and putting into the marketplace a 
fortified product that adds specific micronutrients, vitamins, 
iron that will go a long way to reduce birth defects, 
malnutrition, other issues that are very prominent in famine 
areas. It is an interesting way to work because rice is a 
staple, and we found a way to improve that staple. We are not 
asking anybody to change their diet. We are formulating a 
product that will be better for them when they eat it. So, it 
is very exciting for the industry. I think it has a great 
opportunity in trying to help improve both starvation, 
malnutrition and other issues that we face in this world. Thank 
you.
    Mr. Crawford. Mr. Koach, the U.S. Government has invested 
millions of dollars and years of research in studying new 
fortified food assistance products to deliver targeted 
nutritional value to hungry people, as Mr. Warshaw just 
indicated. Does your organization use these types of products 
such as fortified rice or Super Cereal Plus, and what kind of 
efforts are being undertaken to incorporate these products into 
your aid delivery?
    Mr. Koach. No, we do not deliver or implement those types 
of products. Our current programs are development programs that 
are using some traditional commodities including wheat and peas 
and lentils and vegetable oil, are our largest ones.
    Mr. Crawford. Any particular reason why you are staying 
away from the fortified varieties?
    Mr. Koach. Yes. Those are used in very severe, acute 
malnutrition situations. We do have some small programs, but 
again, not in a major sense that are implementing those. Those 
are used for very quick onset and fundamentally for children to 
stabilize their nutrition situations. They can be used for 
other populations but that is the target.
    They are good products. The nutrition strategy by USAID 
recently published has helped boost that awareness. But they 
are also very expensive to process, and again, they are 
processed and priced efficiently and effectively but they are 
still expensive.
    The best nutrition as we are looking to get people out of 
those acute, severe hunger situations and stabilize them over 
the course of 5, 6 years because they are going to hit those 
hungry months again is getting those nutrients largely to 
lactating mothers, elevating the virtues and importance of 
breastfeeding, stabilizing health, water projects and 
rebuilding livelihoods so that over time they can reduce their 
reliance on those emergency products.
    Mr. Crawford. Mr. Warshaw, is there a price disparity there 
that you see as significant between conventional varieties or 
traditional varieties versus a fortified varieties?
    Mr. Warshaw. I can't speak for any other than rice. The 
additional cost of rice is fairly minimum. It would be less 
than five percent of the value of the product. And it works. We 
use it here in the United States. It is mandated by law that we 
fortify our products here in the United States--the bread you 
eat, the rice you eat, the milk you drink. So it works across 
all sectors. So I would think it would also work even better in 
areas where you have malnutrition and you have people that are 
starving. It is giving them the basic food and it is giving 
them the vitamins and the micronutrients to allow them to live 
a healthier life.
    Mr. Crawford. So the cost doesn't seem to be that much of 
an impediment there, so I am just wondering, Ms. Dills, do you 
share that sentiment? Is it a cost issue? Is it an issue for 
the difference between children and adults or lactating mothers 
and adults? It seems to me like the fortified varieties seem to 
be a pretty good value proposition.
    Ms. Dills. Congressman, sometimes it is actually cultural 
preferences. Sometimes these are commodities that are 
unfamiliar to populations, and so it is very hard. It takes 
years to get them to accept different tastes, different 
textures. And so I fully agree with fortified foods.
    There can also be challenges with local governments 
accepting certain types of commodities into their countries. 
There are actually complexities around this issue but we of 
course have used fortified foods in many of our country 
programs.
    Mr. Crawford. Thank you.
    I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Aguilar, 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman, and thank you all for 
your testimonies and for being here today. We have hit some 
important topics that need to be addressed, and I appreciate 
your candid views of the food-based programs as well as the 
cash or voucher programs and the role they play.
    I am interested to know a little bit on the effectiveness, 
how you measure the effectiveness and sustainability of your 
programs. Moving forward, this group will ask tough questions 
of all sides, and I think that how we measure our effectiveness 
is important, and if Ms. Dills and Mr. Peanick could start in 
how you measure the effectiveness of your programs and things 
that the Committee should be aware of, moving forward.
    Ms. Dills. Certainly. Thank you.
    Yes, it is important not just to count numbers, people that 
are served, but actually look at the impacts of the people that 
we are serving. Through our Food for Peace programs that I am 
more familiar with, I have worked in six different countries 
for CRS on Food for Peace programs and we have found that there 
are very specific indicators that measure impact, and one of 
them is food availability. At the start of a program, we 
measure how many months of food that households have available 
and looking at that at the end of the program. In the recent 
program that I oversaw in Madagascar, we saw it went from 7.7 
months of the year to 9.1 months. So that is a very good 
indication that there is more food security for those 
households that we reached.
    Certainly, when I mentioned John Clement, we are weighing 
children, we are measuring their height to weight, their weight 
for age and tracking those indicators over a period of time to 
see how many children are successfully rehabilitated if they 
are undernourished. So there are a variety of indicators. I 
think technology is helping us collect this information faster, 
more real time. CRS is very proud of using mini iPads and 
actually providing beneficiary cards that have QR codes and so 
that you can scan--when a mother arrives for a distribution on 
a monthly basis, we can scan her card and we know what mothers 
come to for the distribution on a monthly basis and what 
mothers are absent that we can follow up afterwards.
    It allows us to track other services because it is multi-
sectoral. It is not just food. It is looking at, she needs to 
be participating in a care group, she needs to be going to 
prenatal visits, she needs to be looking at hygiene in the 
household. So all of these things can be tracked more easily 
with technology and provide real-time information to our donor. 
Thank you.
    Mr. Peanick. Well, Breedlove takes a slightly different 
approach. We ship to roughly 65 countries in our 21 year 
history, worked with over 50 different PVOs at the same time, 
so it is difficult, not impossible, given our lack of 
resources, to do research projects on each of those feeding 
programs.
    What we do try to do with the grants that have been given 
us is to leverage as much as possible, and as I said, 1.5 
billion servings of this food, which is nutritionally dense. It 
is packed with many of the micronutrients that the local food 
doesn't have. So it is a misnomer to equate hunger with 
malnutrition, so that one way to leverage the program is to 
make sure that the food that is being provided is nutritionally 
fortified.
    Mr. Aguilar. Mr. Koach?
    Mr. Koach. Yes. Thank you.
    As far as oversight and evaluation of our programs, USAID 
and USDA require a results framework showing linkages between 
our program objectives, activities, indicators that do measure 
outputs and outcomes. They both require us to indicate certain 
indicators such as reduced stunting in children, increased 
incomes or production so they can track progress across 
programs and across sectors. Private volunteer organizations 
also share lessons learned in a formal manner through technical 
working groups like the Core Group or TOPS that are meeting 
regularly. So now both USDA and USAID require an independent 
contractor to collect our baseline data before our programs get 
going, conduct a midterm evaluation, see if there are any 
efficiencies or corrections that need to be made, and then the 
final evaluations.
    So we hope that adequate funding will be available so we 
can use topnotch researchers and evaluators from land-grant and 
other universities who can also provide feedback about which 
particular types of activities work best.
    Mr. Aguilar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Benishek, for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Thank you for being here this morning. I appreciate your 
input. I have a couple questions based on your testimony.
    Ms. Dills, tell me about this risk that you are talking 
about. You said that there is a lot of risk involved with the 
cash-based, and I can, from my own mind, understand the risks, 
and some of the other Members over here brought it up too, but 
you have actually done this then, right? So tell me a little 
bit more specifically about the risks that you have seen.
    Ms. Dills. Certainly. I think that there is a time and 
place appropriate for all types of programming. I actually 
arrived in Haiti right after the earthquake in 2010, 7 days 
after the earthquake, and we needed to provide different items 
for different types of beneficiaries to build back better. I 
think that in our programs an assessment has to be done on what 
can work in that particular place at that particular time.
    There are risks, but my organization, Catholic Relief 
Services, we have tried to minimize those risks when we 
implement cash or voucher programs. We certainly prefer more 
voucher programs. So a voucher has a barcode on it. The 
beneficiaries receive these vouchers and then they go to 
vendors that have been pre-approved by CRS so they have been 
vetted appropriately, and they are selling appropriate items to 
the beneficiaries. So the beneficiaries choose what they want 
to buy. And in these cases, in our food programs in many of our 
cases, they are buying local food products so they are buying 
fish, they are buying eggs, they are buying greens. These are 
high in protein for beneficiaries. So our program, it is a 
voucher program. Some people would call it a cash program but 
it is actually not providing cash directly to the 
beneficiaries. We at CRS actually reimburse the vendors once 
the beneficiaries purchase the products.
    Mr. Benishek. No, I can understand that. That seems like a 
reasonable way of doing it.
    I just have a couple other questions, and they are kind of 
technical because I don't understand how this all works, 
frankly. You know what I mean? When you talk about the 
difference between development and emergency, I understand 
development is helping those farmers and small landholders to 
do a better job with their own agriculture and that. I 
understand that. But I don't understand how do you determine 
when an emergency exists or when you need to act in an area 
that, say, you haven't been to in a while or you are not 
familiar with. How does that occur?
    Ms. Dills. So certainly Catholic Relief Services works with 
local partners that are consistently on the ground, even in 
places like south Sudan where we implement a Food for Peace 
program. We have people out in very remote opposition-held 
areas that we stay in contact with and continue to provide 
services to the most needy. Again, it is based upon the needs 
of the people at the time.
    Mr. Benishek. Who do you have in the south Sudan that you 
talk to?
    Ms. Dills. We have local partner and then our own staff.
    Mr. Benishek. Who would be a local partner?
    Ms. Dills. A local community-based organization so it could 
be a church, it could be a small church group, it could be a 
community-based organization.
    Mr. Benishek. Okay. Let me ask you one more thing that came 
up in your testimony that I didn't understand, this cargo 
preferences that you referred to a couple of times. Tell me 
about that.
    Ms. Dills. Again, we find that U.S.-flag vessels cost 2.7 
times more than foreign-flag vessels. So we are in the business 
of serving the most people who have the most need, and if there 
is a discrepancy of apparently in the last GAO report that $107 
million----
    Mr. Benishek. I know, but your colleague over here says 
that that shipping part is not the major part of the expense; 
the shipping part is only a part of the expense, and there is a 
reason that we have these rules in place so that we can 
maintain the shipping industry in this country for multiple 
reasons but----
    Ms. Dills. Certainly.
    Mr. Benishek.--I don't think that is going to change, so 
can we talk about the--and I am out of time.
    The Chairman. Well, I would point out that we are going to 
have a separate hearing next month on the maritime portion of 
this issue, so we will have plenty of time to go through that.
    Mr. Benishek. All right. So this cargo preferencing that 
you are bringing up is simply the use of the U.S.-flag vessels?
    Ms. Dills. That is certainly one, but also the reducing the 
minimum tonnage required to be shipping on U.S.-flag vessels is 
another consideration, and eliminating requirements for minimum 
tonnage.
    The Chairman. The gentleman's time has expired.
    Ms. Dills. Sorry.
    The Chairman. We are going to have experts in on the 
shipping issue next month.
    Mr. Abraham, for 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman.
    Ms. Dills, I was in Haiti too just a few days after the 
quake and I was aware of y'all's efforts there, a phenomenal 
job in a very tough environment, so kudos to you guys for that.
    Mr. Warshaw, I am a Louisiana boy. I have a lot of rice in 
my district of north central and in the Florida parishes. I 
guess the question I want to ask is, let's compare Louisiana 
rice to, say, a locally resource-insecure country, and I will 
just pick Cambodia as an example. Comparing the two types of 
rice, is there a different between the safety and nutritional 
value between rice that we grow in Louisiana and, say, an 
resource-insecure country as Cambodia?
    Mr. Warshaw. Again, thank you for the question. I think 
beyond a shadow of a doubt, the United States produces the 
safest food supply that is out there in the world, and 
depending on regions around the world, there are issues. There 
are issues with water quality. There are issues with what kind 
of herbicides and pesticides that are used, farming practices, 
storage practices. By far, what we supply through the in-kind 
programs is a superior food, which can be supplied timely and 
it can be supplied in a cost-effective manner.
    When you go to a local or regional purchase program, you 
often distort the market locally, and then the pure cost of 
that product may change, but specific to your question, yes, 
there are no doubt problems when you try to put together a 
large quantity of an agricultural product in a country that 
doesn't really have it available with its quality. There is 
really no testing or protocol or adherence to any standards, 
and we see this in the commercial export industry, not just in 
emergency food aid. We are living by USDA and FDA and \1/2\ 
dozen other agencies that are watching what we do every day in 
the food-processing industry here in the United States. Hardly 
any of that exists in the major rice-producing areas around the 
world, surely not to the scrutiny level that we have.
    Mr. Abraham. And I was going to go to the ``why,'' but you 
have answered that question.
    In your mills that our rice goes through in Louisiana, 
certainly I am assuming there is more regulation than rice 
going to locally in these countries that are in need. Is that a 
fair statement? And what regulations are you having to jump 
through hoops to get rice certified?
    Mr. Warshaw. I can't speak for every country out there but 
surely in the United States, with Food and Drug, with USDA, 
with Federal Grain Inspection Service, with APHIS, these are 
all requirements that we have to go through. We have Federal 
Grain Inspection Service employees that live in our plant. 
Everything we ship, they certify. We have APHIS. Everything 
that ships out of the country is certified through APHIS. We 
have, more than I would like to count, agencies looking over 
our shoulder making sure that we put out both for domestic and 
export consumption the products are safe. By far, and I think 
it is well documented, that the food coming from the United 
States, whether it be Food for Peace or Progress or for export 
or commercial, is a safe product.
    Mr. Abraham. Thank you.
    My last question will also be to you, and I want to read 
this one. Has the agricultural community been sufficiently 
involved in the discussion of any potential changes that may be 
made to the Feed the Future initiative?
    Mr. Warshaw. I am sorry. Can you repeat the question?
    Mr. Abraham. Yes, sir. Has the agricultural community been 
sufficiently involved in the discussion of any potential 
changes that may be made to the Feed the Future initiative or 
other broader reform?
    Mr. Warshaw. The farm bill that was just signed into law 
that you all worked so hard to get signed into law gave some 
flexibility to do in-kind. It gave some flexibility for cash 
and for local regional purchases. So I think that gives these, 
I guess, non-in-kind programs an opportunity to prove 
themselves, do they make sense. Specific to our industry, the 
fortified rice is a very, very interesting product that is 
coming out, and yes, we are engaged in trying to push this 
forward because we are not asking people to eat something 
different; we are asking them to consume exactly what they have 
been consuming all their life, and in reality, taste, texture 
and color will be the same. It will give an added benefit.
    So we are trying to improve most of all the food processors 
in the United States that put Food for Peace products out there 
to make a better product that has a better value for the end 
consumer and ultimately produces a better outcome. That is the 
goal.
    Mr. Abraham. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. The bad part about 
leaving the room for other meetings is, you come back and you 
get immediately surprised as to whether or not you are here, so 
I have to get my questions that I wanted to actually ask and 
get answers.
    But I just wanted to, number one, thank each and every one 
of you. This is an extremely important issue. I am surprised 
today that my colleague, Mr. Rouzer's head wasn't in the way to 
stop you from seeing me. I joked at an event last night about 
that.
    But I do want to ask some questions to Mr. Cowan. As 
somebody who comes from Illinois, we are blessed with some of 
the best producing farmland on Earth, as many of your members, 
I am sure, talk about. Unfortunately, though, many other 
countries, they are not lucky with their agriculture 
production, and because of their land issues, it makes the 
production very limited. Do you think the in-kind donations of 
U.S. agriculture products help offset some of those 
limitations?
    Mr. Cowan. Congressman, without a doubt, the in-kind 
programs and the commodities that we send overseas, they are 
not only more reasonably priced as American farmers, we are not 
scared of any market producing against anybody in the United 
States. We provide the safest, lowest-cost food that anybody 
can. As you know, from Illinois, with the blessings that you 
all have up there and the big crops that you have had, we need 
to keep these markets. The thing that we have with in-kind that 
I see and as I go overseas, U.S. commodities are seen as the 
very best. When I travel to China, anywhere in the Far East, 
when I travel to Europe, there is no question that those 
commodities that come from American producers and are processed 
in American facilities are viewed as the gold standard on 
Earth. When you move away from that as an American farmer, when 
you move to more cash, I worry not only about looking at that 
gold standard, I look at the fact that as farmers, we are some 
of the most supportive people in the country as far as being 
able to deal with charity. I know the Breedlove facility very 
well at Lubbock. I have been involved in the past with donating 
commodities to them because I know that that commodity that I 
donate to them is going to go and do good somewhere else in the 
world. And so it is very important that we do that and that 
product doesn't come from another area of the world where it 
may not be as nutritious or as safe as it would be from the 
American producer.
    Mr. Davis. I personally agree with a lot of your comments, 
especially the one about blessings in Illinois with our 
agricultural production.
    Mr. Cowan. Well, for somebody from Illinois that realizes 
those blessings and then you are from west Texas where we farm 
the most harsh environment in the United States, I often get 
kidded by that from the people from the Midwest.
    Mr. Davis. Well, take it well because I get kidded back 
from the Chairman behind me about Texas and Illinois often.
    Last question for you, Mr. Cowan. Are you concerned that 
the local regional procurement programs will result in the use 
of U.S. taxpayer dollars to purchase commodities from your 
overseas competitors?
    Mr. Cowan. Of course, and when we do that, when you have 
purchases that are cash-based instead of in-kind commodities, 
you also leave the discussion up to what technologies, what 
advancements we have made being able to get into those 
countries. One of the things that we have problems with 
overseas continually is markets that don't allow the newer 
varieties of soybeans into their markets because of not 
approving those traits into the market. Biotech soybeans are a 
prime example. That is another product that can improve the 
nutrition of those overseas, and as we keep in-kind, then that 
kind of pushes that envelope to where if they are having to get 
U.S. products and we can show them that very best in the world 
product and as we can get it to them. And so I really worry 
about when you give cash that it goes to the supplier of lowest 
cost, and a lot of times that is also the supplier of the 
lowest quality.
    Mr. Davis. I am glad you mentioned biotech and 
biotechnology. I was recently at a Pioneer facility in my 
district where they talked about one of the traits that they 
are developing for a soybean that has zero trans fats, and I 
thought to myself, how can that be bad? We are actually taking 
a nutritional advantage with an American product through 
biotechnology, and you are right, we have to do more on that 
aspect.
    Thank you for your time. Thank you all for our opportunity 
to hear from you. I yield back.
    The Chairman. The gentleman yields back. I recognize myself 
for 5 minutes. Again, I thank the panel for being here.
    The previous discussion talked about the big picture and 
solving hunger around the world, and in fact, that is the 
stated goal of the Global Food Security Act. It is pretty clear 
to me that throughout all those discussions, production 
agriculture as well as the resources at USDA, are not 
necessarily at the table as that conversation is going on.
    Can I get each of the panelists just to give me a quick 
sentence or two on your support or lack of support for the 
Global Food Security Act?
    Ms. Dills?
    Ms. Dills. Thank you, Mr. Chairman.
    From our reading of the bill, there are no substantial 
changes to international food aid programs, and for us at 
Catholic Relief Services, we are hoping for better coordination 
between Feed the Future and international food aid programs 
where appropriate. Thank you.
    The Chairman. Thank you.
    Mr. Koach?
    Mr. Koach. Yes, we too support the Global Food Security Act 
that helps ensconce a lot of the U.S. Government's global food 
security strategy, but Mr. Chairman, your points are right, 
that it is important to keep these key constituencies engaged 
as U.S. food assistance is the only foreign assistance program 
that this Committee had jurisdiction over, has robust 
jurisdiction over every 5 years pursuant to the farm bill. 
Particularly with the food aid and food security, the 
assessment demonstrated is that these programs that are being 
discussed this morning provide a vital linkage to what the 
Global Food Security Act and Feed the Future is helping 
developing.
    The Chairman. All right.
    Mr. Didion?
    Mr. Didion. Yes, sir. As an American and a humanitarian, I 
am for feeding people around the world, whether that is our 
product or any other nutrient-dense product. The best product 
for the application, in my opinion, is a nutrient-dense 
product. It has been talked about, the inland cost of 
transportation sometime is equal to or greater than the 
commodity itself, and so highest-value product delivered in 
country best, absolutely.
    The Chairman. Mr. Peanick?
    Mr. Peanick. Having been newly posted to this position, I 
am not intimate with the Global Food Security Act, but I am 
confident that involvement of this Committee would protect the 
interests of the ag producers and the food processors and 
ultimately end up with getting the most bang for the buck to 
those that need it the most, and that is the hungry kids.
    The Chairman. Thank you.
    Mr. Cowan?
    Mr. Cowan. Mr. Chairman, ASA has been a longtime supporter 
of agriculture development abroad to promote greater food 
security. This is shown through the work of the World 
Initiative for Soy for Human Hunger and Health, which is the 
agriculture development arm of ASA. WISHH recently concluded 
projects in Afghanistan, Bangladesh and Liberia and is working 
in Ghana, Mozambique, Pakistan and other countries to develop 
soy food, feed and livestock value chains. However, the Global 
Food Security Act as currently written falls short of its goal 
to create a whole-of-government approach for addressing global 
food security strategy. ASA applauds this Committee for taking 
a second look at the text and at the important role that the 
Department of Agriculture and the U.S. agricultural system can 
play in maximizing the effectiveness of our international 
agriculture development programs.
    The Chairman. Thank you.
    Mr. Warshaw?
    Mr. Warshaw. I think it is a pretty simple answer, that 
agriculture has to have a seat at the table in these 
discussions and have input so that we can work for the 
betterment of what we are all trying to accomplish.
    The Chairman. All right. Thank you. And again, I thank our 
panelists for being here today to talk to us about this. It is 
pretty clear to me that each of you has a real heart for your 
work and that is important.
    We will have a struggle in this arena of where that line is 
ultimately drawn between all in-kind and all cash or all 
vouchers. If you look at the last 100 years, there has never 
been a country that has done as much good for the rest of the 
world as the United States and ask so little in return--and 
much of that has been feeding people. So, as we set priorities 
and we try to draw those lines, maintaining support across a 
broad section of Americans for these programs is going to be 
vital. As we look at scarce resources, and as we move the line 
towards less in-kind and more cash assistance, then we begin to 
eliminate natural support systems within the American populace. 
If most Americans see a 100 pound sack of rice being given out 
to a hungry group of folks, and it has the American flag on it 
they will be darn near unanimous in their support. And so that 
emotional attachment to helping people is important to what you 
do and why you do it. Likewise, we have to maintain that link 
with our folks and can do so by having the backbone of that 
system on the production side at the table in the conversations 
and being supportive of whatever it is we are trying to do.
    I don't know that our guys here would argue that it ought 
to be 100 percent in-kind, and I don't know that you are 
arguing it ought to be 100 percent cash. But wherever that line 
gets drawn, we are going to have to do it thoughtfully. We 
think the 2014 Farm Bill gave some flexibility, and we are 
keenly interested in the evaluation process rather than a rush 
to judgment to increase that flexibility further.
    So thank you very much for your very thoughtful testimony 
this morning. It is clear that each of you is a part of the 
solution. So I appreciate each of you being here.
    Under the rules of the Committee the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplemental written responses from the 
witnesses to any questions posed by a Member.
    This hearing of the Committee on Agriculture is adjourned.
    [Whereupon, at 11:33 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
        Submitted Statement by Navyn Salem, Founder, Edesia Inc.
    Edesia appreciates the opportunity to submit testimony to the House 
of Representative Agriculture Committee Hearing on International Food 
Aid. Edesia is a Rhode Island-based nonprofit manufacturer of high 
quality, peanut-based ready-to-use therapeutic and supplementary foods 
that are used to treat malnutrition in children around the globe. 
Edesia understands the importance of U.S.-manufactured, in-kind food 
assistance. Since our inception in 2010, we have reached three million 
children in 46 countries with our products. This includes over 8,000 
metric tons of products for programs supported by the U.S. Agency for 
International Development (USAID) and the United States Department of 
Agriculture (USDA)--equivalent to providing over one million children 
with lifesaving treatments. We are proud of the part we play in helping 
to save the lives of children around the world--children who would not 
be saved without the generosity of the American people and the hard 
work of USAID and USDA.
    Edesia's work supports the second sustainable development goal 
``Zero Hunger'' with a target of ending all forms of malnutrition by 
2030. For this to become a reality, we will need a balance of 
international food aid that is flexible to meet the needs of the 
various populations and situations that are presented to the 
humanitarian community. The root cause of malnutrition is poverty; 
economic development and increased resiliency must be part of the long 
term strategy for improved nutrition. For this reason, we also support 
local and regional procurement in situations where a faster response is 
possible. Additionally, we feel a new emphasis on nutrition security 
and aid that is fit-for-purpose, such as specialty nutritional products 
for treating malnutrition, will be increasingly important in order to 
reach the world's goals for 2030. Edesia stands ready to assist 
Congress, USAID and USDA in meeting these goals.
    Our partnerships with USAID, USDA, and UN agencies not only allow 
us to reach children in need, but also allow us to create economic 
growth at home. Our work helps to support American agriculture--we use 
peanuts, sugar, oil, soybeans, and dairy commodities from all over the 
country. Since our opening in 2010, we have grown from a company of 20, 
to today having a team of 75. Next year we are expanding to a new 
82,000 square foot facility in the hopes that we can continue to reach 
nutritionally vulnerable children around the world.
    Thank you for providing Edesia the opportunity to submit testimony. 
As international food aid programs are reviewed by your Committee we 
hope you will use us as a resource; we are highly experienced in the 
area of specialized food aid, and as a nonprofit business, we 
understand the economics while also remaining committed to the goals. 
Please do not hesitate to contact me if the Committee has any questions 
or would like further information.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
